U.S. Small Business Administration
Office of Inspector General

 _________________________________


       Semiannual Report to Congress
                Fall 2007




      April 1, 2007 – September 30, 2007
The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended, are
listed below.


Source                                                                                       Page

Section 4(a)(2)    Review of Legislation and Regulations                                         26

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                              3-26

Section 5(a)(2)    Recommendations with Respect to Significant Problems,
                   Abuses and Deficiencies                                                    40-42

Section 5(a)(3)    Prior Significant Recommendations Not Yet Implemented                      36-39

Section 5(a)(4)    Matters Referred to Prosecutive Authorities                                47-55

Sections 5(a)(5)   Summary of Instances Where Information Was Refused                         None
and 6(b)(2)

Section 5(a)(6)    Listing of OIG Reports                                                        31

Section 5(a)(7)    Summary of Significant Audits & Other Reports                               3-26

Section 5(a)(8)    Audit Reports with Questioned Costs                                           32

Section 5(a)(9)    Audit Reports with Recommendations that Funds Be Put to
                   Better Use                                                                    32

Section 5(a)(10)   Summary of Reports From Prior Semiannual Reports
                   Where No Management Decision Was Made                                         33

Section 5(a)(11)   Significant Revised Management Decisions                                   None

Section 5(a)(12)   Significant Management Decisions with Which
                   the OIG Disagreed                                                          None

Section 5(a)(13)   Information Described Under Section 05(b) of the Federal
                   Financial Management Improvement Act of 1996                                N/A
                                        Overview of SBA and the OIG



Overview of SBA and the OIG............................................................................................................................. 1

Significant OIG Activities .................................................................................................................................... 3

                  Disaster Loans .................................................................................................................................. 3

                  Small Business Access to Capital................................................................................................... 11

                  Small Business Development, Contracting, Education, and Training............................................ 19

                  Agency Management...................................................................................................................... 23

                  Other Significant OIG Activities.................................................................................................... 25

Statistical Highlights........................................................................................................................................... 27

Appendices

        I.        OIG Reports Issued ........................................................................................................................ 31

       II.        OIG Reports with Questioned Costs .............................................................................................. 32

     III.         OIG Reports with Recommendations that Funds Be Put to Better Use ......................................... 32

     IV.          OIG Reports with Non-Monetary Recommendations .................................................................... 33

       V.         OIG Reports from Prior Semiannual Periods with Overdue Management
                   Decisions as of September 30, 2007 ........................................................................................... 33

     VI.          OIG Reports Without Final Action as of September 30, 2007....................................................... 34

    VII.          Summary of Significant Recommendations from Prior Semiannual Reporting
                    Periods Without Final Action as of September 30, 2007............................................................ 36

   VIII.          Summary of Significant Recommendations,
                    April 1, 2007 through September 30, 2007................................................................................. 40

     IX.          Events/Activities Where SBA Used its Cosponsorship Authority,
                   April 1, 2007 through September 30, 2007................................................................................. 43

       X.         Legal Actions Summary, April 1, 2007 through September 30, 2007 ........................................... 47

      XI.         OIG Organizational Chart .............................................................................................................. 57




                                                                                 i
                                 Overview of SBA and the OIG


Additional Semiannual Legislative Reporting Requirements from the Small Business Act, as Amended:

            SBA Cosponsorship and Fee-Based Administration-Sponsored Events—Small
            Business Act, Section 4(h) ............................................................................................................. 24

            SBDC Surveys—Small Business Act, Section 21(a)(7) ................................................................ 22

            SBA Gift Authority—Small Business Act, Section 4(g)(2)........................................................... 24




                                                                       ii
                           Overview of SBA and the OIG

The Small Business Administration

The mission of the Small Business Administration (SBA) under the Small Business Act, as amended, is to
maintain and strengthen the Nation’s economy by enabling the establishment and vitality of small
businesses and by assisting in the economic recovery of communities after disasters. The Agency’s Fiscal
Year (FY) 2008 – 2013 Strategic Plan has three programmatic strategic goals that broadly define what the
Agency and its programs are trying to accomplish: The strategic goals are “Expand America’s ownership
society, particularly in underserved markets”; “Provide timely financial assistance to homeowners,
renters, nonprofit organizations and businesses affected by disaster”; and “Improve the economic
environment for small business.” A fourth strategic goal, “Ensure management and organizational
excellence to increase responsiveness to customers, streamline processes, and improve compliance and
controls,” defines the responsibility of the Agency’s executive leadership and support functions to help
accomplish the programmatic goals.

SBA is organized around four key functional areas: financial assistance (e.g., loan programs); contracting
assistance; technical assistance (e.g., entrepreneurial development); and disaster assistance. The Agency
also represents small businesses through an independent advocate and an ombudsman. SBA headquarters
is located in Washington, D.C., while its business products and services are delivered with the help of
10 regional offices, 68 district offices, 4 Disaster field offices, and a vast network of resource partners in
all 50 States, the District of Columbia, Puerto Rico, American Samoa, the U.S. Virgin Islands, and Guam.
SBA’s appropriation for FY 2007 is $571 million. As of September 30, 2007, SBA had 2,181 employees,
including Office of Inspector General (OIG) personnel but excluding disaster-funded employees. There
were 2,849 temporary and permanent disaster employees, excluding contractors.

The Office of Inspector General

Pursuant to the Inspector General Act of 1978, as amended, the OIG adds value to SBA programs and
operations by providing auditing, investigative, and other services to support and assist the Agency in
achieving its mission. The OIG strives to identify significant issues and offer recommendations to correct
or eliminate problems and fraudulent schemes that adversely impact the efficiency, effectiveness, or
integrity of SBA’s programs and operations.

The OIG has four divisions that perform the key functions described below.

    •   The Auditing Division performs financial, information technology and other mandated audits,
        program performance reviews, and internal control assessments, and oversees audits by
        contractors to promote the economical, efficient, and effective operation of SBA programs.

    •   The Investigations Division manages a program to detect and deter illegal and/or improper
        activities involving SBA programs, operations, and personnel. The criminal investigations staff
        carries out a full range of traditional law enforcement functions. The security operations staff
        ensures that all Agency employees have the appropriate background investigations and security
        clearances for their duties. They also conduct the name check program, which provides SBA
        officials with character-eligibility information on loan applicants and other potential program
        participants.




                                                      1
                           Overview of SBA and the OIG

    •   The Counsel Division provides legal and ethics advice to all OIG components, represents the
        OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
        enforcement matters, processes subpoenas, responds to Freedom of Information and Privacy Act
        requests, and reviews and comments on proposed Agency policies, regulations, legislation, and
        procedures.

    •   The Management and Policy Division provides business support (e.g., budget/financial
        management, human resources, information technology, and procurement) for the various OIG
        functions, coordinates the preparation of the Semiannual Report to Congress and the Report on
        SBA’s Management Challenges, and develops OIG strategic and performance plans.

The OIG’s headquarters is located in Washington, DC., and has field staff located in Atlanta, GA,
Chicago, IL, Dallas, TX, Detroit, MI, Denver, CO, Herndon, VA, Houston, TX, Kansas City, MO,
Los Angeles, CA, Miami, FL, New Orleans, LA, New York, NY, Philadelphia, PA, Tacoma, WA, and
Washington, DC.

An organization chart for the OIG can be found in Appendix XI.

OIG Work During This Reporting Period

As of September 30, 2007, the OIG had 105 staff on-board. The OIG’s FY 2007 appropriation was
$15.3 million, including a $1.5 million transfer for disaster assistance oversight activities. In addition, a
supplemental appropriation during FY 2006 provided the OIG with $5 million in “no-year” funds for Gulf
Coast hurricane disaster oversight.

During this reporting period, OIG activities focused on the two strategic goals in our FY 2006-2011
Strategic Plan: “Improving the economy, efficiency, and effectiveness of SBA programs and operations,”
and “Promoting and fostering integrity in SBA programs and operations.” Using this framework, the OIG
concentrated on critical risks facing SBA, including: risks of financial losses due to SBA's downsizing,
centralization, and limited oversight and controls; risks to SBA's performance of its statutory mission to
promote small business development and Government contracting; and risks associated with SBA's
information technology and financial management systems and other internal operations.

The challenges and risks facing the Agency increased significantly with the devastation from the
hurricanes that hit the Gulf Coast during 2005. The OIG has undertaken a series of reviews of the
management of SBA’s disaster assistance process, the loan application approval process, loan
disbursement activities, use of proceeds, and SBA’s loan processing system, known as the Disaster Credit
Management System (DCMS). The OIG has also directed significant investigative efforts toward
detecting and deterring fraud related to the SBA Disaster Loan program.

OIG efforts and accomplishments during the second half of FY 2007 are summarized in this report. Audit
and other reports issued during this reporting period are listed in Appendix I. Investigative actions are
summarized in Appendix X. Copies of this report and other OIG reports and work products are available
on the OIG’s website at http://www.sba.gov/ig/igreadingroom.html.




                                                     2
                                 Significant OIG Activities

                                             Disaster Loans
The Disaster Loan program plays a vital role in the aftermath of disasters by providing long-term, low-
interest loans to affected homeowners, renters, and businesses of all sizes. There are two types of disaster
loans: (1) physical disaster loans for permanent rebuilding and replacement of uninsured disaster-
damaged privately-owned real and/or personal property, and (2) economic injury disaster loans to provide
necessary working capital to small businesses until normal operations resume after a disaster. Physical
disaster loans are available to homeowners, renters, businesses of all sizes, and nonprofit organizations.
The Disaster Loan program is particularly vulnerable to fraud and unnecessary losses because loan
transactions are expedited in order to provide quick relief to disaster victims.

On August 29, 2005, Hurricane Katrina devastated the Gulf Coast regions of Louisiana, Mississippi, and
Alabama. It was quickly followed by Hurricanes Rita and Wilma, creating further loss of lives and
property in Florida and Texas. As of September 30, 2007, SBA had approved almost 120,000 disaster
loans – totaling almost $7 billion1 – in the aftermath of the Gulf Coast hurricanes, and had fully disbursed
more than 110,000 disaster loans – totaling almost $5.7 billion. Including loans that had been partially
disbursed, the Agency made full or partially disbursements on 98.8 percent of the approved loans, for a
total of almost $6.1 billion.

Given the broad scope of SBA’s Gulf Coast hurricane disaster assistance efforts, OIG audit and
investigative work will focus heavily on this area for the foreseeable future.

$1.5 Billion in Loans Were Awarded to Applicants Who Lacked Repayment Ability

The magnitude of the Gulf Coast hurricane disasters significantly increased the need for SBA disaster
loan assistance. SBA received over 400,000 disaster loan
applications, which created a considerable backlog and         In response to the delays, SBA authorized
resulted in loan processing delays. In response to the          the Expedited Loan Program as a pilot in
delays, SBA authorized the Expedited Loan Program as a                  November 2005 to accelerate the
pilot in November 2005 to accelerate the underwriting of                  underwriting of disaster loans.
disaster loans. The program was extended four times. The
program used credit scores and a series of critical questions to underwrite loans and make general loan
approvals. Nearly 45 percent of all Gulf Coast disaster loans made by SBA were approved under the
expedited procedures.

The OIG initiated an audit to determine whether the expedited loan application process resulted in
appropriate loan approvals. Loan decisions under the Expedited Loan Program were not based on cash
flow analyses, as required under standard processing procedures. Instead, loan approvals were based
primarily on credit scores, regardless of an applicant’s income level and expenses.

A statistical sample of 76 loans found that        A statistical sample of 76 loans found that 32 percent were
32 percent were made to applicants who             made to applicants who lacked repayment ability. Based
lacked repayment ability.                          on these results, the OIG projected that 21,802 loans,
                                                   totaling $1.5 billion, were awarded to high-risk applicants

1
 These numbers reflect original applications approved (160,513, totaling $10.9 billion) net of loans subsequently
canceled, withdrawn, increased, and decreased.


                                                         3
                               Significant OIG Activities

who may not be able to repay their loans. These loan applications would not have been approved if they
had been processed under standard loan processing procedures. For example, a $36,700 home loan was
approved for a borrower who had a negative cash flow, which would have disqualified him under
standard loan processing procedures. The sample results were similar to a Quality Assurance Review
(QAR) conducted by the Agency in June 2006, which found
that 28 percent of the applicants processed under the               …there is a high probability that a
Expedited Loan Program potentially could not repay their         significant number of loans processed
loans. Consequently, there is a high probability that a under expedited procedures will default.
significant number of loans processed under expedited
procedures will default. In addition, had these borrowers been declined for loans, SBA would have
referred them to the Federal Emergency Management Agency (FEMA) for possible grant assistance.

The OIG recommended that SBA review all canceled loans that were approved under expedited
procedures to identify applicants who lacked repayment ability, notify those applicants of their potential
eligibility for FEMA assistance, and make the appropriate FEMA referrals. The OIG also recommended
that the Agency review the creditworthiness of borrowers associated with undisbursed home loans and
refer those borrowers to FEMA, as appropriate. SBA agreed to contact as many of these borrowers as
possible.

SBA Did Not Secure Its Interest in Collateral on $368 Million in Disaster Loans

In response to a complaint, the OIG initiated an audit to determine whether SBA secured its interest in
collateral prior to disbursing loan proceeds. At the time of the audit, SBA’s Disaster Assistance
Processing and Disbursement Center in Fort Worth, Texas, had a backlog of 4,970 unprocessed checks
from borrowers for collateral and filing fees. A review of a statistical sample of the unprocessed checks
disclosed that SBA disbursed approximately $7.3 million on 76 percent of the loans reviewed without
properly securing all of the loan collateral. Based on the sample results, the OIG projected that about
$368 million was disbursed without proper collateralization. Not perfecting liens in a timely manner
increases the Agency’s risk of losing its lien position to other creditors.

…approximately 52 percent of the         A variety of problems led to the under-collateralization of loans.
checks in the backlog were over 90       These problems included the acceptance of documents that were
days old and needed to be replaced by    subsequently determined to be legally insufficient, the separation
the borrowers                            of documents from checks received from borrowers to pay for
                                         lien filing fees that could not be re-matched once the documents
were ready for filing, and a backlog of checks that were too old to process or had incorrect information.
For example, approximately 52 percent of the checks in the backlog were over 90 days old and needed to
be replaced by the borrowers. In other instances, checks were written either for the wrong amount or to
the wrong payee. As a result, checks had to be returned to       …checks had to be returned to borrowers
borrowers and replacement checks issued before the               and replacement checks issued before the
collateral could be secured. While the audit was limited to                     collateral could be secured.
unprocessed checks on hand as of January 18, 2007, the
OIG believed that improperly securing collateral was a systemic issue that extended beyond those loans
examined in the audit as many of the underlying reasons for the problems relate to how the Processing
and Disbursement Center processes loan disbursements.




                                                     4
                               Significant OIG Activities

The OIG recommended that SBA perfect the collateral on the loans identified during the audit, review all
loans associated with the backlog of checks to ensure that collateral on these loans was perfected, ensure
that required legal sufficiency reviews of appropriate security instruments and other closing documents
are conducted prior to disbursements, and pursue an automated means of securing borrower payment for
collateral recording and filing fees. Overall, the Agency was responsive to the audit recommendations,
reporting that it had perfected collateral on the loans identified during the audit, reduced the number of
checks on hand to 440 as of October 14, 2007, and implemented a title check tracking and accountability
system to more accurately record and monitor the status of in-house checks.

SBA Terminated Nearly 8,000 Approved Loans without Notifying Borrowers in Advance

In response to complaints received from two former SBA employees, the OIG conducted an audit of
SBA’s cancellation of approved disaster assistance loans to victims of the Gulf Coast hurricanes. The
complainants alleged that SBA unnecessarily canceled approved loans to meet production standards for
either closing or disbursing loans.

The OIG reported that SBA’s Customer Service Center in Buffalo, New York, canceled 11,893 loans
during the first two weeks of September 2006. Of those, 7,752 loan were canceled without providing
                                           borrowers advance notice of the pending cancellation and
…7,752 loan were canceled without          without contacting them by phone. SBA’s Customer Service
providing borrowers advance notice… Center canceled the loans, in most cases, after making only
                                           one attempt to contact the borrowers, instead of the three
attempts they were instructed to make by SBA’s Fort Worth Processing and Disbursement Center. When
borrowers could not be reached and their loans were canceled, SBA incorrectly annotated its records to
show that the borrowers requested the cancellations (the incorrect entries were caused by limitations on
how entries could be coded in DCMS.) SBA then sent the borrowers cancellation notices after the fact, in
some cases stating that the borrowers directed SBA to cancel their loans.

After the initial cancellations, SBA made another attempt in October 2006 to contact borrowers who had
not previously been reached. Of the borrowers who were successfully contacted, 1,195 requested that
their loans be reinstated.

The OIG contacted borrowers associated with 66 canceled loans to obtain their perspective on the loan
cancellations. Several of the borrowers were upset with their loans
being canceled and felt SBA pushed them into making on-the-spot              Several of the borrowers… felt
decisions. They believed that they were not given adequate time to       SBA  pushed them into making on-
produce loan closing documents to prevent their loans from being                          the-spot decisions.
canceled and ultimately were pressured into canceling. Although
borrowers were later notified that their loans could be reinstated, reinstatement could not occur unless the
borrowers could show that SBA’s cancellation action was in error or could provide justification that SBA
should reinstate the loans. Additionally, borrowers were required to submit all of the required documents
for loan closing. This was problematic for some borrowers because they still did not have all the needed
closing documents, were relocating and didn’t have mortgages on the new property, or were waiting for
infrastructure to be restored to areas where they planned to rebuild their homes or businesses.

The audit also identified borrowers who were approved for loans even though they lacked repayment
ability and may have been eligible for FEMA grants. These individuals subsequently had their loans



                                                     5
                                  Significant OIG Activities

                                             canceled, but because they were approved for SBA loans,
…these borrowers could be precluded from     could not apply for FEMA assistance. Consequently, these
receiving all of the Federal assistance to   individuals received neither SBA loans nor FEMA grants.
which they may have been entitled.           In the absence of SBA action to refer them to FEMA, these
                                             borrowers could be precluded from receiving all of the
Federal assistance to which they may have been entitled.

The OIG recommended that SBA reconsider its loan policy on reinstatement deadlines for the 6,557
canceled Gulf Coast hurricane loans that were not reinstated and notify the borrowers that extensions may
be granted for reinstatement, as appropriate. Also, the OIG recommended that SBA review the four
canceled loans identified in the report where the borrowers did not have repayment ability, notify the
borroweres, and refer them to FEMA for grant assistance, if appropriate. The SBA agreed to review
canceled loans that should have been declined and refer them to FEMA where appropriate.

Results of Quality Assurance Reviews Were Altered

Applications for physical disaster loans require on-site inspections to verify disaster losses. These
inspections are referred to as loss verifications. The initial damage estimates for disasters that occur
within the continental United States are conducted by loss verifiers assigned to Office of Disaster
Assistance (ODA) Field Inspection Teams. In February 2005, a group of SBA employees assigned to
ODA was determined to be the Most Efficient Organization (MEO) under an A-762 competition and was
awarded a 5-year “contract” to conduct initial loss verifications. The OIG initiated a review of a
complaint from an employee that QARs of individual loss verifications conducted by the MEO were
inappropriately altered so that required performance metrics could be met.

The review found that 72 of 246 QARs conducted in July 2006 had been materially altered. As a result,
the exception rate for the QARs significantly decreased – from an unacceptable rate of 4.8 percent to an
acceptable rate of 0.6 percent. In addition, while copies of the
original QARs were available from the complainants, SBA             …the QAR process was compromised
could not produce the originals, which may have been                when a senior official was allowed to
destroyed. The OIG concluded that the QAR process was                                  alter the results…
compromised when a senior official was allowed to alter the
results in order for the MEO to avoid penalties and to retain work under the A-76 contract. Also, because
ODA both managed the MEO and performed the QAR, it lacked the independence needed to fairly
evaluate the MEO’s performance.

The OIG recommended that responsibility for conducting QARs be reassigned to an SBA organization
outside of ODA, guidance be developed to require QAR officials to document reasons for exceptions and
any changes to the initial QAR results, and the MEO’s involvement in the QAR process be limited to the
resolution of issues associated with the final QAR results. Finally, the OIG recommended that a new
QAR be performed. The Agency reported that it is taking steps to improve the QAR process and has
performed a new QAR of the loss verification process.




2
    Refers to OMB Circular A-76, Performance of Commercial Activities.


                                                        6
                              Significant OIG Activities

SBA Generally Did Not Disburse Funds Contrary to Borrowers’ Wishes

On October 2, 2006, SBA initiated a “90-in-45” campaign with a goal of disbursing funds and reducing a
backlog of 90,000 Gulf Coast Hurricane loans within 45 days. As part of the “90-in-45” campaign, SBA
established production goals to monitor employees’ performance. The OIG received multiple complaints
about the expedited loan processing activities at Fort Worth Processing and Disbursement Center. One
complaint alleged that loan proceeds were disbursed contrary to borrowers’ wishes and without necessary
documentation. The complainant also alleged that SBA pressured case managers to rapidly make
disbursements to meet production goals and gave cash awards to teams with the greatest number of
disbursements.

Regarding the first complaint, the OIG contacted 208 borrowers and found only 7 instances where
disbursements were made contrary to borrowers’ wishes. In two instances, checks were mailed to the
borrowers without any prior notification. In the other five instances, borrowers asked SBA not to
disburse the funds or to delay the disbursements, but the funds were disbursed by SBA anyway. Six
borrowers returned the loan disbursements. Only one borrower decided to keep the funds. In all cases
when borrowers returned the checks, loan balances were appropriately reduced.

Regarding the second complaint, the OIG found that SBA established daily production goals and
distributed awards to recognize and reward employees who made the largest number of disbursements,
                                         but had not performed an analysis to determine whether the
SBA established production goals         Processing and Disbursement Center could reasonably meet
…which may have inappropriately          the production goals without sacrificing customer service and
influenced case managers to disburse     adherence to SBA loan requirements. While the goals were
funds that borrowers did not want.       intended to get disaster funds in the hands of borrowers more
                                         quickly, they may have inappropriately influenced case
managers to disburse funds that borrowers did not want. Because many case managers held temporary
positions, production goals became an issue of job security. For example, one temporary case manager
stated that most case managers were fearful that if they did not disburse enough loans, they would be
replaced.

The OIG recommended SBA ensure, where borrowers are undecided about the loan or have not been in
recent contact, that an attempt is made to contact the borrower prior to disbursement to determine whether
disaster funds are still needed. The OIG also recommended that SBA ensure, in future campaigns, that
performance goals and associated awards are based on reasonable time frames that consider customer
service and legal requirements. The Agency generally agreed with the recommendations.

SBA Properly Identified and Modified Most Disaster Loans that Duplicated Benefits Provided by
HUD Grants

The SBA OIG, in coordination with the Department of Housing and Urban Development (HUD) OIG,
conducted an audit to determine whether SBA loans related to the 2005 Gulf Coast hurricanes that
duplicated disaster benefits provided by HUD Community Development Block Grants were properly
identified and modified to prevent or detect duplication of benefits. The audit focused on SBA’s
processing of modifications to disaster loans that were made to reduce loan balances by amounts awarded
through HUD grants administered by the Louisiana Road Home Program and the Mississippi
Homeowners Assistance Grant Program. As of May 2007, SBA had processed 3,681 modifications –



                                                    7
                               Significant OIG Activities

totaling $172 million – to reduce disaster loan amounts as a result of the HUD grant program. SBA had
also received remittances totaling $131 million from both the Louisiana Road Home Program and the
Mississippi Homeowners Assistance Grant Program to reduce SBA loan balances.

The OIG reviewed 172 grants and found that SBA generally complied with provisions of the Stafford Act
related to preventing or detecting duplicate benefits within SBA’s Disaster Loan program. Of the 172
grants, 108 duplicated benefits provided by SBA disaster loans. All but two of those loans were correctly
modified. One loan was erroneously reduced by SBA. After the funds had been received, SBA realized
that it had requested the remittance in error and re-disbursed the funds to the borrower. The second loan
was erroneously reduced through a remittance that was incorrectly sent to SBA by Mississippi. After the
OIG brought this to SBA’s attention, SBA reinstated the loan.

The OIG concluded that the relatively few loans that were incorrectly modified did not constitute a major
breakdown in internal controls. Consequently, no recommendations were made.

8(a) Contracts Were Either Not Reported to SBA or Reported but Not Recorded by District Offices

The OIG conducted an audit of 8(a) contracts related to Gulf Coast reconstruction as a result of
congressional interest in determining whether small, minority-owned businesses were receiving Gulf
Coast contracts. The OIG reviewed 8(a) contracts from the two largest Federal agencies procuring
contracts for Gulf Coast reconstruction: the Department of Homeland Security (DHS) and the Department
of Defense (DoD). As of September 30, 2006, DHS and DoD accounted for approximately 80 percent of
the contract dollars obligated to 8(a) firms for Gulf Coast reconstruction, or about $548 million.

The OIG reviewed 60 8(a) contracts over $1 million from DHS and DoD to determine if approvals were
received from SBA to accept 8(a) contracts and whether agencies were reporting the procurements to
SBA as required by their partnership agreements
with SBA. Based on limited information available        …31 of the 60 contracts awarded were either
in the 60 contract files, the OIG could not determine   not reported to SBA or were reported, but had
whether DHS and DoD were properly offering the          not been entered by district office staff into
contracts, or whether SBA was properly accepting        the Agency's database…
them. However, the OIG found that 31 of the 60
contracts awarded were either not reported to SBA or were reported, but had not been entered by district
office staff into the Agency's database – the Servicing and Contracting System/Minority Enterprise
Development Center Office Repository (SACS/MEDCOR). The validity of 8(a) contract data continues
to be at risk because SACS/MEDCOR ceased operation on April 30, 2007, and now resides in an interim
system. The integrity of the information contained within the interim system is unknown by the OIG.

The OIG recommended that SBA notify agencies with partnership agreements that they are required to
provide a copy of any contract, as defined in FAR 2.101, including basic contracts, orders, modifications,
and purchase orders, to the SBA servicing district office within 15 days of the date of the award. The
SBA agreed and reported that it has revised its partnership agreements with procuring agencies to include
appropriate language. The OIG also recommended that SBA provide training to Business Development
Specialists on how to enter information into the successor database(s) to SACS/MEDCOR, and ensure
that all data in the current database is accurate and verified before migrating to its successor database(s).




                                                     8
                               Significant OIG Activities

SBA Did Not Maximize Recovery on at least $360.3 million in Delinquent Disaster Loans

The OIG conducted an audit to determine if the SBA maximized its recovery of delinquent pre-Katrina
disaster loans through collateral liquidations and by referral to the U.S. Treasury for debt collection. The
audit disclosed that SBA did not maximize recovery on a projected $360.3 million in delinquent disaster
loans. SBA did not actively pursue a projected $261.5 million in delinquent loans because of conflicting
guidance in its operating procedures and did not transfer a projected $24.7 million in delinquent loans to
Treasury because the loans were improperly coded. The OIG also determined that SBA did not refer to
Treasury all responsible parties on a projected $74.1 million of charged-off loans because the loans were
not coded properly and that loan details, such as the name and identification numbers, were not entered
into the Portfolio Management Treasury Offset System database.

The OIG recommended that SBA revise its Standard Operating Procedures (SOPs) and clarify existing
guidance to better explain the requirements of the Debt Collection Act. The OIG further recommended
that SBA implement controls to ensure that the liquidation of collateral and assets are actively pursued to
the fullest extent possible at the Disaster Loan Liquidation Center, and that loans are properly coded and
transferred to Treasury and/or the Liquidation Center in accordance with the Debt Collection Act.

Multi-Agency Task Force Pursues Gulf Coast Hurricane Fraud

Largely as a result of participation with other law enforcement entities on the Hurricane Katrina Fraud
Task Force, the OIG has made 26 arrests and has obtained 29 indictments and 22 convictions from the
task force’s inception through September 30, 2007. As disaster loans come due after the initial 12-month
deferral of payments, the OIG anticipates more allegations of fraud and potential loss to SBA. OIG cases
related to the Gulf Coast hurricanes include the following.

    •   A certified public accountant (CPA) made false statements to several lenders in Louisiana so that
        they would approve four non-SBA loans totaling approximately $2.9 million. She impersonated
        an SBA employee and falsely represented that SBA disaster loans had been approved and
        committed for businesses controlled by her employer. The CPA pled guilty to making false
        statements relating to loan and credit applications. This case was referred by the DHS OIG. The
        OIG is conducting this investigation jointly with the U.S. Secret Service.

    •   An individual fraudulently represented an address as his primary residence on disaster assistance
        applications filed with four government agencies in
        order to receive funds to which he was not entitled. An individual fraudulently represented
        He was approved for a nearly $79,000 loan from SBA, an address as his primary residence on
        of which $10,000 was disbursed. He also received            assistance applications filed with four
        nearly $9,600 from FEMA, and about $300 from the                          government agencies…
        U.S. Department of Agriculture (USDA). The man
        was sentenced to five months incarceration, five months home confinement, two years supervised
        release, a $3,000 fine, and restitution of over $20,000, of which over $8,000 will be used to pay
        off the remainder of his SBA loan. Based on a DHS OIG referral, the OIG conducted the
        investigation jointly with the DHS OIG, the USDA OIG, and the Mississippi State Auditor’s
        Office.




                                                     9
                              Significant OIG Activities

    •   A Florida couple provided false statements on their disaster assistance application and during the
        loss verification inspection. As a result, they received $50,000 of an approved $112,500 loan
        from SBA. They had stated that their primary residence was in Mississippi when in fact they
        lived in Florida and were not affected by any of the hurricanes. The couple also received over
        $6,700 from FEMA. The husband and wife pled guilty to making false claims and statements.
        The OIG is conducting this joint investigation with the Federal Bureau of Investigation (FBI) and
        the Mississippi State Auditor’s Office.

    •   A California couple allegedly provided false statements regarding the location of their primary
        residence in an attempt to receive undeserved benefits from various agencies. The couple was
        approved for a nearly $122,000 SBA disaster loan, a $100,000 Mississippi state grant, and over
        $12,000 from FEMA. They were indicted for conspiracy, fraudulent claims, false statements,
        theft of public funds, wire fraud, submitting a false loan and credit application, and civil
        forfeiture. The OIG conducted this investigation jointly with the DHS OIG and the Mississippi
        State Grant Authority.

Inspector General Testifies on SBA’s Efforts after Hurricanes Rita and Katrina

On July 25, 2007, the Inspector General (IG) testified before the Senate Committee on Small Business
and Entrepreneurship on the effectiveness of SBA’s efforts to cope with the aftermath of Hurricanes Rita,
Wilma and Katrina. The testimony covered several of the audits and reviews discussed above, including
Improperly Canceled Disaster Loans, QARs of Loss Verifications, and the Expedited Loan Program.




                                                   10
                               Significant OIG Activities

                            Small Business Access to Capital
SBA has a financial assistance portfolio of small business loans and financings of almost $84 billion.
With more than 4,900 lenders authorized to make SBA loans, the Section 7(a) Loan Guaranty program is
SBA’s largest lending program and the principal vehicle for providing small businesses with access to
credit which cannot be obtained elsewhere. This program is vulnerable to fraud and unnecessary losses
because it relies on numerous third parties (e.g., borrowers, loan agents, and lenders) to complete loan
transactions. Approximately 87 percent of loans guaranteed annually by SBA are made by lenders to
whom SBA has delegated loan-making authority. Additionally, SBA has centralized many loan functions
and reduced the number of staff performing these functions. Between 2001 to 2006, SBA’s staffing
decreased by more than 29 percent while the number of direct and guaranteed loans increased by more
than 50 percent. As SBA has placed more responsibility and independence on its lenders, the need for
OIG oversight has increased significantly.

Another vehicle for capital, the SBIC program, was established in 1958 to stimulate and supplement the
flow of private equity capital and long-term debt to small business concerns using private venture capital
firms and SBA-guaranteed funding. The program is being revamped because it cost about $2 billion
more than anticipated from FY 1993 to FY 2004. Finally, small and emerging contractors who cannot
obtain surety bonds through regular commercial channels can apply for SBA bonding assistance under the
Surety Bond Guarantee program.

Ongoing Investigation of Major Loan Fraud

During the previous reporting period, arrest warrants were issued for 19 individuals in connection with a
scheme in which a lender’s former executive vice president and others conspired to fraudulently qualify
loan applicants for SBA-guaranteed loans. The scheme involved as many as 76 fraudulent loans totaling
over $76 million. A common aspect to a number of these cases was the falsification of equity injection.
During this reporting period, this joint investigation with the U.S. Secret Service resulted in the following
guilty pleas and judicial actions.

    •   A company president conspired with his brother and others to fraudulently qualify himself for a
        $990,000 SBA-guaranteed loan to be used to purchase
        a gas station and convenience store from his brother’s        …the conspiracy used a false sales
        company in Detroit. The object of the scheme was to        agreement, an inflated purchase price,
        refinance and consolidate the financially troubled                   and  a bogus down payment.
        Detroit company’s delinquent debts by using proceeds
        from the loan made to the “straw buyer.” To accomplish this, the conspiracy used a false sales
        agreement, an inflated purchase price, and a bogus down payment. The loan defaulted, and SBA
        paid over $719,000 to the lender. The company president was sentenced to one year and one day
        in federal prison and ordered to pay almost $659,000 in restitution to an SBA lender. The
        restitution will be a joint obligation with his brother, who has pled guilty but has not yet been
        sentenced.

    •   Two borrowers and a seller were indicted for conspiracy, false statements, and aiding and
        abetting in connection with a scheme to present false equity injection documents to a lender in
        order to obtain SBA-guaranteed loans for the purchase of two different businesses. The first
        borrower allegedly used false equity injection documents to obtain a $1.4 million SBA-


                                                     11
                              Significant OIG Activities

        guaranteed loan. The seller verified the false documents, thus allowing the borrower to obtain the
        loan. The loan defaulted and SBA paid a claim of nearly $1,038,000. The second borrower
        allegedly used false equity injection documents to obtain a $1,310,000 SBA-guaranteed loan to
        purchase a different business. The seller again verified
        the false equity injection documents, which allowed the       The loan defaulted and SBA paid a
        borrower to obtain the loan. This defaulted loan resulted             claim of nearly $1,038,000.
        in the SBA paying a claim of nearly $877,000.

    •   A former assistant vice president of a bank supplied false verifications of deposit for loan
        applicants and gave a loan broker unpaid-for cashier’s checks to be used for loan closings. She
        pled guilty to conspiracy and misapplication of bank funds and admitted giving the loan broker
        four unfunded official checks totaling more than $2.8 million.

    •   The owner of an oil company was charged with making false statements related to a $1,212,000
        SBA-guaranteed loan. The false statements concerned his employment history, the ownership of
        the oil company, the amount of cash he had on hand, and the fact that his brother had given him a
        gift of $363,000 to satisfy the equity injection requirement for the loan.

    •   The president and the secretary of a gas station and convenience store were each sentenced to one
        year probation and a $2,500 fine in connection with falsely representing that they had made a
        $130,000 equity injection in order to obtain a $1,175,000 SBA-guaranteed loan. Despite the
        falsified equity injection, the individuals continued to make payments on their loan, and the
        collateral was appraised for more than the outstanding loan balance, resulting in the court viewing
        this as a “no loss” case.

    •   An individual was indicted for conspiracy, false statements, and aiding and abetting. She
        allegedly conspired with others to defraud SBA by obtaining an $825,000 SBA-guaranteed loan
        for her brother-in-law, who was the owner and intended operator of the business. She also
        allegedly overstated her financial status, provided false information about the source of a
        $250,000 equity injection, and made misrepresentations on the management resume. The OIG is
        conducting this joint investigation with the U.S. Secret Service.

SBA’s Oversight of Business Loan Center, LLC

As a result of the OIG investigation mentioned in the previous article, the OIG initiated an audit of the
SBA’s oversight of Business Loan Center, LLC (BLX). The OIG investigation resulted in the arrest of a
BLX Executive Vice President and 18 other individuals, not employed by BLX, for allegedly making
over $76 million in fraudulent loans to unqualified loan applicants.

The audit identified problems with the manner     The audit identified problems with the manner in
in which SBA addressed performance and            which SBA addressed performance and compliance
compliance issues…and SBA’s actions to            issues with BLX’s lending activities and SBA’s
protect government funds once deficiencies        actions to protect government funds once deficiencies
were identified.                                  were identified.      Since 2001, SBA’s oversight
                                                  activities identified recurring and material issues
related to BLX’s performance. Despite these recurring problems, SBA continued to renew BLX’s
delegated lender status and SBA took no actions to restrict BLX’s ability to originate loans or to mitigate


                                                    12
                                Significant OIG Activities

financial risks through the purchase review process. The audit also determined that the organizational
placement of SBA’s Office of Lender Oversight (OLO) presented a potential conflict because OLO did
not have compatible goals with the organization to which it reports, and that SBA lacked clear
enforcement policies. The OIG recommended that SBA take certain actions to mitigate the risk posed by
BLX, identify actions to address the potential organizational conflict, and develop more definitive
guidance on enforcement actions.

SBA Has Not Fully Realized the Benefits of the Loan and Lender Monitoring System or Used the
Data to Drive Risk-Based Decisions

In 1996, Congress passed the Small Business Programs Improvement Act, which required SBA to
establish a risk management database that provides timely and accurate information to identify loan
underwriting, collections, recovery, and liquidation problems. In FY 2003, SBA contracted with Dun &
Bradstreet for the Loan and Lender Monitoring System (L/LMS) to provide the Agency with the
information necessary to assess and manage risk in its loan portfolio. SBA uses predictive financial
models to develop composite ratings that reflect SBA’s assessment of the potential risk to the government
from lenders’ SBA portfolio performance.

The OIG initiated an audit to determine whether the L/LMS generates lender ratings that correspond to
actual lender performance and the extent to which SBA uses lender ratings to manage the risk in the
section 7(a) program. The audit disclosed that,
although the rating system generates the               …the Agency’s method of assigning risk based on
information needed by SBA to assess lender risk,           lender's scores was inadequate for conducting
the Agency’s method of assigning risk based on                    effective portfolio and lender oversight.
lender scores is inadequate for conducting
effective portfolio and lender oversight. Because SBA arbitrarily limits the number of lenders that could
be considered “high-risk” to no more than 10 percent of the lenders in each peer group, it excluded large
groups of lenders with poor historical performance from being considered a priority for oversight
attention. In addition, the Agency conducted on-site reviews of only those lenders with guaranteed loan
                                                     portfolios of $10 million or more, regardless of their
…it excluded large groups of lenders with poor       risk ratings. Consequently, smaller lenders with
historical performance from being considered a       high-risk ratings were not reviewed on-site. The
priority for oversight attention.                    Agency also had not shared lender risk ratings with
                                                     SBA offices responsible for purchasing loan
guaranties. The ratings would help purchase officials identify those lenders with above-average default
rates and high-risk lending practices whose purchase requests require closer scrutiny.

The OIG also found that the Agency had not yet developed or implemented comprehensive loan-
monitoring policies and procedures to: (1) define acceptable lender performance and risk tolerance levels
that require corrective actions be taken by the lenders: (2) identify enforcement actions that will be taken
when the risk tolerance limits are violated; or (3) describe how data generated by L/LMS will be
incorporated into mission activities agency-wide and reflected in credit models used by the Agency for
financial reporting.

The OIG recommended that SBA: (1) establish a method for assigning risk ratings that more accurately
reflect the risk profiles of the lenders; (2) develop an on-site review plan for all high-risk 7(a) lenders with
guaranteed loan portfolios in excess of $4 million; distribute L/LMS data to offices involved in



                                                      13
                              Significant OIG Activities

purchasing loan guaranties; (3) share lender risk ratings with SBA offices that make guaranty purchase
decisions; and (4) develop loan-monitoring policies and procedures that define acceptable lender
performance and risk tolerance levels.

SBA Purchased Guaranties without Determining Whether Lenders Had Originated, Serviced, and
Liquidated Loans in Accordance With SBA Requirements and Prudent Lending Procedures

Section 7(a) loan purchase reviews are performed by the National Guaranty Purchase Center (NGPC) in
Herndon, Virginia. The guaranty purchase process involves a review of the purchase request and relevant
documentation to evaluate whether a lender materially complied with program rules and regulations in
determining whether to honor a guaranty. These reviews help ensure that SBA does not make improper
payments. Under the Improper Payments Information Act, SBA must annually examine and report the
rate of improper payments. In FY 2006, SBA estimated this rate to be 1.56 percent.

The OIG examined purchase procedures used by the            …SBA made approximately $36 million in
NGPC to determine whether they were effective in           erroneous payments on loans with purchase
identifying lender deficiencies in order to prevent    reviews completed between October 1, 2004 and
erroneous payments. The audit disclosed that SBA                                       May 31, 2005…
purchased guaranties without adequately analyzing
documentation or obtaining sufficient information needed to assess whether lenders originated, serviced,
and liquidated loans in accordance with SBA requirements and prudent lending practices. Based on the
results of sampled loans, the OIG projected that SBA made approximately $36 million in erroneous
payments on loans with purchase reviews completed between October 1, 2004, and May 31, 2005. These
erroneous payments equated to an improper payment rate of 17 percent, a rate significantly higher than
the 1.56 percent reported by SBA. The major deficiencies identified involved lenders not verifying
borrower equity injection, not adequately documenting the use of proceeds, not properly securing
collateral, and not verifying repayment ability.

The audit also disclosed that staffing problems and an overly aggressive emphasis on expediting and
increasing purchase production at the NGPC had adversely impacted the quality of purchase decisions. A
high rate of staff turnover in FY 2006 left the NGPC with unfilled vacancies and largely inexperienced
loan officers to review purchase requests. The NGPC had only three individuals to perform supervisory
oversight of nearly 3,000 purchase reviews. As a result, supervisors either did not review purchase
                                                    requests performed by inexperienced loan officers or
…staffing problems and an overly aggressive         did not identify deficiencies the loan officers missed.
emphasis on expediting and increasing purchase The task of performing adequate purchase reviews is
production…adversely impacted the quality of        expected to become more challenging in the future
purchase decisions.                                 because the Agency established a goal to increase its
                                                    loan production by 15 percent by the end of FY
2007 without identifying the additional resources to handle the increased loan production and resulting
increases in purchase requests.

The OIG recommended that SBA perform more thorough reviews on selected purchase requests using a
sample-based approach. The sampling plan would need to consider each lender’s performance, and the
dollar value of the errors found in the sample would need to be projectable to the lender’s portfolio as a
basis for recovery for all loans in the lender’s universe. In addition, the OIG recommended that SBA
ensure future purchase decisions receive the proper supervisory review and that an evaluation is made of



                                                    14
                               Significant OIG Activities

the quality of decisions made under the new process to assess the level of risk associated with
streamlining efforts and its impact on the improper payment rate reported in the Agency’s budget.

Dishonest Loan Agents Continue to Harm SBA Loan Programs

A loan agent is paid by a prospective borrower or a lender to prepare the documentation for an SBA loan
application and/or refer the borrower to a lender (or vice versa). Although reputable loan agents have
linked small businesses to sources of capital, dishonest agents have perpetrated frauds involving hundreds
of millions of dollars in loans. Moreover, loans associated with loan agent fraud often default for
nonpayment, thus increasing losses in the loan guaranty program.

For example, in the $77 million scheme described
previously, an OIG investigation determined that a          …a loan agent, a corporate secretary…and the
loan agent, a corporate secretary of an auto service          corporate president conspired to fraudulently
center, and the corporate president conspired to               obtain a $1.1 million SBA-guaranteed loan.
fraudulently obtain a $1.1 million SBA-guaranteed
loan. The three individuals made or caused false statements to be made to SBA by claiming that
$210,000 in repairs and renovations to the auto service center had been completed prior to loan closing.
The business defaulted on the loan and SBA paid a claim of over $789,000 to the lender. The loan agent
is a fugitive and is believed to have returned to his native country. The corporate secretary pled guilty to
conspiracy, and charges against the corporate president and the loan agent are pending.

The OIG’s FY 2007 Management Challenges Report identified loan agent fraud as one of the top
challenges for the Agency and made recommendations to deter loan agent abuse. For example, SBA does
not currently know the magnitude of the loan agent problem because it collects little information about
loan agent involvement with its loans. The Agency needs to systematically identify all loan agents and
track their association with individual loans. This is critical to identifying corrupt loan agents, since loan
agents have opportunities for contacts with multiple lenders and due diligence in loan processing varies
greatly among lenders.

SBA Official Violates Ethics Rules and Allegedly Commits Fraud in Obtaining SBA-Guaranteed
Loan

An SBA branch office manager was indicted for making false statements to an SBA lender and to SBA.
He allegedly submitted a false personal financial statement to a lender in connection with an $80,070 loan
application, purporting to own $235,000 in stock when he knew the stock had little value. He also
allegedly made false statements to SBA on his financial disclosure report by failing to disclose both the
SBA-guaranteed loan and his management role in the business for which the loan was obtained. These
omissions were significant because conflict of interest and ethics rules would have prohibited his
receiving the SBA-guaranteed loan due to his position with the Agency. The OIG is conducting this joint
investigation with the FBI.

OIG Investigations Uncover a Variety of Fraudulent Tactics in SBA’s Loan Guaranty Programs

To fraudulently obtain – or induce others to obtain – SBA-guaranteed loans, criminals resort to a variety
of methods, such as: submitting fraudulent documents; making fictitious asset claims; manipulating
property values; and failing to disclose debts, prior criminal records, or other SBA-backed loans. In



                                                     15
                             Significant OIG Activities

addition, borrowers sometimes use loan proceeds contrary to the terms of the loans. These practices
increase the likelihood of financial loss to SBA and its lenders. The following examples, in addition to
those discussed above, reveal the techniques individuals use to fraudulently acquire SBA loans.

   •   An Internet-based company in Virginia
                                                             OIG Investigative efforts disclosed that the
       induced over 900 people to fall victim to a
                                                        business plans were worthless and that only one
       major scam by promising, among other
                                                                or two businesses ever received an SBA-
       things, to provide a comprehensive business
                                                                                       guaranteed loan.
       plan and an SBA-guaranteed loan in
       exchange for a fee of at least $3,500. OIG
       Investigative efforts disclosed that the business plans were worthless and that only one or two
       businesses ever received an SBA-guaranteed loan. The company’s former owner was sentenced
       to 84 months in prison and 3 years supervised release, and was ordered to pay over $2,755,000 in
       restitution along with a co-defendant. The owner was also ordered to pay, independently from
       the co-defendant, nearly $218,000 to the Internal Revenue Service (IRS) and was prohibited from
       engaging in any financial businesses. He had previously pled guilty to mail fraud, engaging in a
       monetary transaction in criminally derived property, and tax evasion. This case was based on a
       referral from SBA’s Richmond District Office. The OIG conducted this joint investigation with
       the U.S. Postal Inspection Service and the IRS.

   •   An OIG investigation found that most of a $1 million SBA-guaranteed loan made to a now
       defunct electronic imaging company, for the purpose of purchasing equipment from a machinery
       company, was instead used for unauthorized purposes, including buying out a former partner,
       paying taxes, and making unauthorized payments to the two principals of the machinery
       company. All three individuals agreed to enter into the Pre-Trial Intervention program. The
       imaging company principal agreed to 200 hours of community service and $25,000 restitution to
       SBA, and the two machinery company principals each agreed to 100 hours of community service
       and $50,000 restitution to SBA.

   •   A joint investigation by the OIG and FBI revealed that a New York business owner used a false
       Social Security number when applying for SBA-guaranteed loans for two of his businesses and
       failed to disclose over $257,000 in outstanding Federal and state tax liens. Based on this false
       information, a loan of $1,550,000 was approved for one business, and a loan of $100,000 was
       approved for the second business. The owner pled guilty to bank fraud and bankruptcy fraud.
       The bankruptcy charge relates to the owner’s false statements on a bankruptcy document. The
       OIG is conducting this joint investigation with the FBI.

   •   The former owner of a dump truck hauling business in the State of Washington made false
       statements to SBA and to a federally-insured bank regarding his company’s tax liability in order
       to obtain a $750,000 SBA-guaranteed loan. He hid the proceeds from converted collateral and
       avoided payments to the IRS for past due payroll taxes by failing to disclose assets. He pled
       guilty to bank fraud, bankruptcy fraud, and evasion of payments to the IRS. Per the plea
       agreement, he agreed to forfeit the proceeds from the unlawful activity (including an
       approximately $68,000 investment account) and to pay a monetary judgment of nearly $158,000.
       After receiving a referral from the participating lender, the OIG conducted this joint investigation
       with the FBI and IRS.




                                                   16
                              Significant OIG Activities

False Claims of Citizenship Persist in SBA Loan Programs

As discussed in previous semiannual reports, some prospective borrowers, either individually or with the
help of dishonest loan agents, falsely claim U.S. citizenship when applying for SBA-guaranteed loans.
                                                       These loans often default quickly, with millions of
…some prospective borrowers, either individually
                                                       dollars at risk. Moreover, loans to such borrowers
or with the help of dishonest loan agents, falsely
                                                       can deprive honest loan applicants (citizens as
claim U.S. citizenship when applying for SBA-
                                                       well as non-citizens who legally reside in the U.S.)
guaranteed loans.
                                                       of access to SBA-backed financing.

For example, a part owner of a deli caterer in Utah falsely claimed to be a U.S. citizen and used a false
Social Security number to obtain a $135,000 SBA-guaranteed loan. In addition, the owner of a Mexican
restaurant in Utah falsely claimed to be a U.S. citizen to obtain a $30,000 SBA-guaranteed loan. Both
men entered into pretrial diversion for making a false statement on a loan application and each are
required to make payments on their SBA loans and to notify their pretrial diversion supervisor before
acquiring any additional debt. The OIG is conducting this joint investigation with Immigration and
Customs Enforcement and the Social Security Administration OIG.

Fraud Results in Major Surety Bond Loss

As a result of an OIG investigation, the president of a now defunct construction firm in the State of
Washington was indicted for mail fraud and false statements on a loan application. The construction
company obtained SBA-guaranteed surety bonds in order to perform public works contracts for state and
city governments. The president defrauded SBA and a surety company by falsely stating that his
company was out of funds when, in fact, he had diverted contract proceeds of approximately $87,000 to
his personal use. This apparent shortfall forced the surety company to pay contract owners on defaulted
jobs. In turn, because SBA’s surety bond program guarantees 70 percent of the surety company’s losses,
the Agency suffered losses of over $500,000. The company president also made false statements to a
financial institution regarding the source of the down payment on his home. The National Insurance
Crime Bureau (NICB) referred this case to the OIG, which is conducting this investigation jointly with
the FBI and NICB.

Falsified Capital Injection Remains a Serious Problem

According to SBA procedures, borrowers are required to inject available capital towards a project being
financed by an SBA-guaranteed loan. Capital injection represents a borrower’s own financial stake in a
business, in addition to the loan. Because a borrower
has something personal to lose, he or she is less likely to …borrowers are increasingly falsifying the
default on a loan. Unfortunately, to circumvent SBA’s                amount of their capital injection.
capital injection requirement, borrowers are increasingly
falsifying the amount of their capital injection.

For example, to obtain $500,000 and $1,100,000 SBA-guaranteed loans, a Texas businessman conspired
with two family members by submitting fraudulent business loan applications and supporting documents
that falsified their total required capital injection of $260,000. Thus far, the two family members have
pled guilty to conspiracy to commit wire fraud after having been charged in connection with fraudulent




                                                    17
                              Significant OIG Activities

wire transfers of money from two federally-insured banks to two title companies. The OIG conducted
this joint investigation with the FBI.

OIG Alerts Agency and Lenders about Organized SBAExpress Fraud

The OIG issued an information notice to alert SBA employees and lenders about the increase in
potentially fraudulent SBAExpress loans. The notice identifies indicators of fraud involving both
                                                  borrowers and loan agents. For example, loan agents
The notice identifies indicators of fraud         may focus on a particular ethnic group or recent
involving both borrowers and loan agents.         immigrants in order to recruit prospective borrowers. In
                                                  addition, the agent and/or borrower may submit multiple
loan applications simultaneously to different lenders for the same borrower. To help reduce fraud, the
notice discusses actions that lenders can take, including verifying the existence of business borrowers
through various listings of commercial entities and making a positive identification of the borrowers.




                                                   18
                              Significant OIG Activities

Small Business Development, Contracting, Education, and Training
Through its government contracting programs, SBA works to maximize opportunities for small, woman,
and minority-owned and other disadvantaged businesses to obtain Federal contract awards. These
programs include, among others, the Historically Underutilized Business Zone (HUBZone)
Empowerment Contracting program, and the Small Disadvantaged Business (SDB) Certification
program. SBA also negotiates with other Federal agencies to establish procurement goals for contracting
with small, disadvantaged, women-owned, service-disabled-veteran-owned, and HUBZone businesses.
The current government-wide goal is small businesses to receive 23 of the total value of prime contracts
awarded each fiscal year.

SBA’s Section 8(a) Business Development program offers a broad scope of assistance to socially and
economically disadvantaged firms. Regulations permit 8(a) companies to form beneficial teaming
partnerships, and allow Federal agencies to streamline the contracting process. SBA has also
implemented the Mentor-Protégé program to allow new 8(a) companies to learn from experienced
businesses. These businesses teach 8(a) and other small companies how to compete for the Federal
contracting opportunities as a result of public-private partnerships. Program goals require 8(a) firms to
maintain a balance between their commercial and government business. The overall program goal is to
graduate firms which experience sufficient success to be able to thrive in a competitive business
environment.

In addition, SBA provides assistance to existing and prospective small businesses through a variety of
counseling and training services, offered by partner organizations. Among these are Small Business
Development Centers (SBDCs), the Service Corps of Retired Executives (SCORE), and Women’s
Business Centers (WBCs). Most of these are grant programs that require effective and efficient
management, outreach, and service delivery.

SBA District Offices Did Not Follow SBA Regulations When Determining Whether Companies
Qualified as Small for 8(a) Procurements

The OIG conducted an audit of 8(a) size determinations made by SBA’s district offices. Size
determinations are a key control for ensuring that only small businesses are considered for government
preference contracts. Reports by the OIG, congressional staff, and the Government Accountability Office
have continued to identify instances where large businesses received contracts intended for small
businesses.

The OIG surveyed SBA district offices to determine if they followed SBA regulations when determining
whether companies qualified as small for 8(a)              …district offices surveyed generally did not
procurements.    Under SBA regulations, size follow SBA regulations in making both employee
determinations must be based on payroll records              and revenue-based size determinations…
from the preceding 12 months for employee-based
size standards, and on tax returns for revenue-
based standards. The OIG’s review, however, determined that the district offices surveyed generally did
not follow SBA regulations in making both employee and revenue-based size determinations. Of those
surveyed, 68 percent relied instead on data contained in SBA’s Servicing and Contracting System (SACS)
or from annual reviews to determine the size of companies under employee-based standards. This was
because reviewing payroll records was time consuming and 8(a)’s use of manual payroll systems made it


                                                   19
                              Significant OIG Activities

difficult to determine the average number of employees. In addition, 83 percent of district offices
surveyed reported using tax returns just 62 percent of the time when making revenue-based
determinations. District offices instead relied on financial statements, as tax returns are frequently not
available when companies filed late. Also, 28 percent of the district offices were improperly calculating
revenues for companies that were in business for less than 3 years. Instead of averaging a business
concern’s receipts based on the method specified in SBA regulations, district offices relied on revenue
information in SACS that did not accurately estimate average revenues.

The OIG recommended that SBA: simplify the method and data used to calculate a business concern’s
average number of employees; require certified statements from the 8(a) company’s accountant, financial
officer, or similar official as to its revenues, along with supporting financial statement data, when a
company has not filed a Federal income tax return to determine the size of the 8(a) company based on
revenue; and ensure that district office QARs include an examination of a sample of size determinations
to ensure that district offices are properly performing them. The Agency generally concurred with the
recommendations.

SBA’s Oversight of Contractor Compliance with Subcontracting Plans is Limited

The OIG initiated a review of SBA’s Subcontracting Assistance Program to evaluate SBA’s effectiveness
in ensuring that large contractors comply with applicable laws in developing and implementing their
subcontracting plans. The review also assessed the extent to which SBA, through its Commercial Market
Representatives (CMRs), was adequately identifying, developing, and marketing small businesses to large
contractors to assist them in obtaining contracts.

The OIG surveyed all six of SBA’s Government Contracting area offices to determine the results of the
compliance reviews conducted for FY 2006. The review focused on the CMRs’ on-site compliance
reviews because they are the main focus of the CMRs and can significantly impact the way a large
contractor administers its small business program. The review also examined each office’s efforts to
market small businesses to large contractors.

The review found that SBA performed only limited oversight of large prime contractors’ subcontracting
                                                       plans, which resulted in billions of subcontracts
…SBA performed only limited oversight of large escaping oversight. In FY 2006, only 968 of an
prime contractors’ subcontracting plans, which         estimated 2,200 large prime contractors were
resulted in billions of subcontracts escaping          reviewed. Of the 968 reviews SBA performed, 24
oversight.                                             percent were performed on-site, and the rest were
                                                       desk reviews of prime contractors’ self-reported
achievements or other off-site reviews. While off-site reviews save the Agency time and resources, they
are not the best tool for ensuring that small businesses receive subcontracts because SBA does not review
underlying documentation supporting the prime contractor’s claims.

In addition, SBA has sharply curtailed the ancillary subcontracting assistance activities of its CMRs. The
declining number of CMRs and increasingly part-time nature of their role has restricted the Agency’s
activities under the Subcontracting Assistance Program. The number of full-time CMRs decreased from
24 in 1992 to 5 in 2006, while the number of part-time CMRS increased from 3 to 35 over the same
period. The review disclosed that CMRs were not strategically deployed based on the volume of




                                                   20
                               Significant OIG Activities

contracting activity in each geographic area, which further impeded SBA’s ability to effectively provide
oversight of prime contractors’ subcontracting plans.

SBA also lacked a strategic or annual performance plan for the program, as required by the Government
and Performance Results Act, to establish performance goals for measuring the effectiveness of the
program and assign responsibilities for goal achievement.

The OIG recommended that SBA develop an annual performance plan for the Subcontracting Assistance
Program that establishes performance goals for measuring effectiveness of all key program activities, and
assigns responsibility for achieving the goals. The plan should also address how CMRs will be deployed
and the percentage of time that part-time CMRs are expected to devote to the program to ensure adequate
coverage of prime contractors. The OIG also recommended that SBA submit annual reports on the
Federal government’s subcontracting goal achievements more timely, including the number and dollar
value of subcontracts awarded to small businesses, as required by law.

Bribery Scheme Results in Multiple Indictments

Six individuals were indicted for conspiracy, bribery, kickbacks in a public contract, wire fraud,
disclosure of confidential bid information, money laundering, and other charges in connection with a
multimillion dollar bribery scheme involving fixed contracts between DoD and SBA certified 8(a) firms..
The defendants – an 8(a) firm’s owner and an employee, three government officials, and an official’s son
– allegedly committed these acts to ensure that
the 8(a) company received government                    …one official allegedly used his influence to steer
contracts.     For example, five defendants over $1.6 million in equipment and support contracts
allegedly derived approximately $1 million in          to the 8(a) company in exchange for a share of the
graft from a contract for computer cable                                                   contract proceeds.
upgrades, and the sixth defendant allegedly was
paid $200,000 for accounting services. Moreover, one official allegedly used his influence to steer over
$1.6 million in equipment and support contracts to the 8(a) company in exchange for a share of the
contract proceeds. In addition to criminal charges, the indictment also seeks a $1.2 million judgment.
The OIG is conducting this joint investigation with the FBI, IRS, U.S. Army Criminal Investigation
Division, General Services Administration OIG, Department of Interior OIG, and the Defense Criminal
Investigative Service as part of an FBI task force investigating 8(a) firms that illegally act as pass-through
companies for larger firms that perform the actual work on 8(a) contracts.

Embezzlement Includes Use of Phony 8(a) Firms

A National Archives and Records Administration (NARA) property management official and a contractor
                                                        allegedly conspired to embezzle over $958,000
A National Archives and Records Administration          from a NARA facility in Maryland. The official
(NARA) property management official and a               allegedly used his NARA government purchase
contractor allegedly conspired to embezzle over         card to pay three businesses purportedly
$958,000…                                               operated by the contractor for goods and
services that were never provided or were provided at inflated prices. The businesses were listed on
contracting documents as 8(a) firms, but there was no record of 8(a) certification with SBA. Moreover,
the businesses did not have any offices or employees. The official and the contractor were each indicted




                                                     21
                              Significant OIG Activities

for theft of government property, aiding and abetting, and conspiracy. This case was initiated based on a
referral from NARA. The OIG is conducting this investigation jointly with the NARA OIG.

Multi-Agency Effort Uncovers SBDC Kickback Scheme

A former assistant state director for the organization that administered the Small Business Development
Center (SBDC) program for California was sentenced to sixty months probation, six months house arrest,
1,500 hours of community service, and over $98,000 in restitution as a result of her guilty plea for false
statements and deprivation of right to honest services. In addition, SBA previously submitted a claim to
the State of California for over $1.2 million in reimbursement because of this official’s activities. The
assistant director had been responsible for disbursing federal funds to the network of SBDCs in southern
California. Between 1999 and 2003, she received kickbacks from SBDC contractors, who in turn
received contracts without competitive bids. She also diverted monies intended for SBDC projects to her
own benefit. The SBA OIG conducted this investigation jointly with the HUD OIG and the FBI.

Legislation Requires Approval of SBDC Surveys

In December 2004, Congress amended Section 21(a)(7) of the Small Business Act to restrict the
disclosure of information regarding individuals or small businesses that have received assistance from an
SBDC, and further restrict the Agency’s use of such information. The provision also requires the Agency
to issue regulations regarding disclosures of such information for use in conducting financial audits or
SBDC client surveys. To date, however, SBA has not issued these regulations. In addition, paragraph
21(a)(7)(C)(iii) states that, until the issuance of such regulations, any client survey and the use of such
information shall be approved by the Inspector General, who shall include such approval in the OIG’s
Semiannual Report to Congress. The Agency reported that there were no SBDC surveys requiring OIG
approval during this reporting period.

Assistant Inspector General Testifies on SBA’s Grant Program for Women’s Business Centers

On September 20, 2007, the Assistant Inspector General (AIG) for Auditing testified before the Senate
Committee on Small Business and Entrepreneurship regarding the SBA’s grant program for Women’s
Business Centers (WBC). Under this program, eligible organizations can obtain Federal grants to create
and operate centers that provide training and counseling services to women who own businesses or
contemplating business ownership. The WBCs have voiced significant concerns about delays in grant
payments made by the SBA.

At the Committee’s request, the OIG reviewed the timeliness of SBA grant disbursements. The testimony
covered preliminary findings regarding the extent of payment delays, their causes, and possible solutions.
The OIG has found that payment delays were largely attributable to the lack of coordination and
communication between SBA’s program and grants offices. The AIG discussed opportunities that exist
to streamline the grant award process to enable WBCs to apply for funding earlier in the year.




                                                    22
                              Significant OIG Activities

                                    Agency Management
E-applications System Lacks Adequate Security Operating Procedures and Backup Capability

The OIG initiated an audit of SBA’s E-applications system, an internet-based system that processes
applications for the 8(a) and Small Disadvantaged Business (SDB) certification programs. The purpose
of this audit was to determine (1) whether data stored in E-applications complied with applicable laws,
rules, and regulations governing security of government data and Personally Identifiable Information, and
(2) whether controls over data transferred between E-applications and SBA’s Electronic 8(a) Review
System were sufficient to ensure the complete and accurate transfer of information. The E-applications
system, which was implemented in November 2004, is contractor-owned and operated, and interfaces
with SBA’s Electronic 8(a) Review System. The goal of the system is to reduce the application
processing time by allowing applicants to receive and submit 8(a) and SDB applications electronically,
and by providing 8(a) program personnel with a tool to quickly evaluate and approve applications and
identify those applications which require further review.

The OIG’s review determined that the system’s security safeguards over sensitive government data were
inadequate and did not meet Federal Information Security
Management Act (FISMA), Federal Information                    …the system’s security safeguards over
Processing Standards (FIPS) Publication 200, or National              sensitive government data were
Institute of Standards and Technology (NIST)                                             inadequate…
requirements. For example, SBA had not developed or
implemented standard security operating procedures for E-applications. Also, the contractor that operates
the system lacked data backup and recovery capability, leaving SBA data vulnerable to loss or misuse.

System controls were also insufficient to ensure the complete and accurate transfer of information from
E-applications to SBA’s Electronic 8(a) Review System. For example, system interfaces did not have
                                                sufficient data validation and verification controls to
…SBA lacked assurance that complete and         ensure the integrity of data transferred. These controls
accurate data was transferred from E-           were not required in the contract to build the E-
applications to SBA’s Electronic 8(a) Review applications system. As a result, SBA lacked assurance
System.                                         that complete and accurate data was transferred from E-
                                                applications to SBA’s Electronic 8(a) Review System.

FISMA and FIPS Publication 200 require formalized system security plans for Federal information
systems, including contractor hosted systems. However, reviews performed by SBA since 2004 have
identified significant unresolved security vulnerabilities in the E-applications system. For example, SBA
conducted a review prior to deployment of the E-applications system which disclosed that the vendor had
not defined and implemented standard operating procedures to ensure the security of the system. SBA
reported this condition as a vulnerability and required the vendor to develop procedures to implement
SBA’s security policies by December 31, 2005. As of the end of the reporting period, security procedures
had not been developed or implemented, and SBA had not held the contractor accountable.

Following a site visit in 2006, SBA identified several unremediated data backup and disaster recovery
vulnerabilities, which placed E-applications data at risk of misuse or loss.




                                                   23
                              Significant OIG Activities

The OIG recommended that SBA: modify the existing contract with the vender to require the
development of security procedures to implement SBA’s security policies, a disaster recovery plan, a
backup data storage site, and an alternate data processing site; establish controls to ensure data entered
into E-applications is accurately transferred to the Electronic 8(a) Review System; and validate the
accuracy of data already transferred to the system. The Agency generally concurred with the
recommendations and stated that it would migrate the E-Applications system from the vendor site to an
Agency system within 60 to 90 days in order to place the system in an environment that is compliant with
security, data backup, and disaster recovery requirements.

Number of Overdue Management Decisions has Decreased

The Inspector General Act requires Federal agencies to make decisions on all audit findings and
recommendations within a maximum of six months of report issuance. Program officials may agree,
disagree, or seek alternative actions to the recommendations. To reduce the number of overdue
management decisions, the OIG revised its final audit and recommendation reporting process to require
that the Agency provide management decisions on recommendations made in OIG reports at the time that
it transmits its comments on the draft reports. During this reporting period, management decisions were
made for all but 6 of the 37 recommendations for which management decisions were overdue as of
March 31, 2007 – a reduction in overdue management decisions of almost 84 percent. In all, management
decisions were made for 81 recommendations during this reporting period.

SBA Identified and Addressed Improper Acceptance of Cash

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General, who shall report his findings to Congress. According to
the information provided by SBA’s Office of Strategic Alliances, during this semi-annual reporting period
SBA did not accept any cash gifts.

OIG Reports on SBA’s Cosponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act, as amended, requires the OIG to report to Congress on a semi-
annual basis regarding the Agency’s use of its authority in connection with cosponsorships and fee-based
Administration-sponsored events. SBA’s Office of Strategic Alliances provided information to the OIG
related to cosponsorships, including the names, dates, and locations of the cosponsored events, and the
names of the cosponsors. As shown in Appendix IX, between April 1, 2007 and September 30, 2007,
there were 35 cosponsored events. SBA reported that it did not conduct any fee-based Administration-
sponsored events during this period.




                                                   24
                               Significant OIG Activities

                            Other Significant OIG Activities
Character Screening Diminishes Potential Program Fraud

The OIG’s Office of Security Operations ensures that participants in programs involving business loans,
disaster assistance loans, Section 8(a) certifications, surety bond guarantees, small business investment
companies, and certified development companies meet SBA character standards. To accomplish this, the
security staff utilizes name checks and, where appropriate, fingerprint checks to determine criminal
background information. During this semiannual reporting period, the OIG processed 1,775 external
name check requests for these programs.

As a result of OIG referrals during this reporting        Based on data from its on-line connection with the
period, SBA business loan program managers                FBI, the OIG also refers applicants who appear
declined 42 applications totaling over $17 million        ineligible because of character issues to program
and disaster loan program officials declined 16           officials for adjudication. As a result of OIG
applications totaling over $1 million.                    referrals during this reporting period, SBA
                                                          business loan program managers declined 42
applications totaling over $17 million and disaster loan program officials declined 16 applications totaling
over $1 million. Approximately $288 million in loans have been declined during the last 10 years due to
character eligibility issues, thus making credit available to other applicants who had no such issues.

In addition, based on OIG efforts during this period, the Section 8(a) program declined 6 applications for
admission, and the Surety Bond Guarantee program declined 1 application for admission. The OIG also
initiated 169 background investigations and issued 29 security clearances for Agency employees and
contractor personnel required to have clearances, adjudicated 33 background investigative reports, and
coordinated with the Office of Disaster Assistance to adjudicate 149 derogatory background investigation
reports. Finally, the OIG processed 1,284 internal name check requests for Agency activities such as
success stories, Small Business Person of the Year nominees, and disaster assistance new hires.

OIG Recommends Debarments

The OIG believes that it is in the public interest to debar
parties who have a history of fraud, or otherwise lack           During this reporting period, the OIG
business integrity, from conducting business with the                          submitted 11 debarment
Federal Government. Accordingly, the OIG has adopted a               recommendations    to the Agency.
proactive program to identify SBA program participants that
have demonstrated a lack of business integrity and submit debarment recommendations to the SBA.
During this reporting period, the OIG submitted 11 debarment recommendations to the Agency.

The OIG recommended that SBA debar an individual who devised a scheme to fraudulently obtain money
from the government following the September 11, 2001 terrorist attacks. The OIG investigation
determined that the individual falsely claimed to have lived in the vicinity of the World Trade Center and
that the individual’s belongings were destroyed by debris when the Center towers collapsed. In reality,
the individual never resided at the claimed residence and, at the time of the attacks, no longer owned
some of the belongings claimed to have been destroyed. Based on the OIG’s recommendation, the
Agency issued a notice of proposed debarment to the individual.



                                                     25
                              Significant OIG Activities

The OIG also recommended that SBA debar an individual for submitting false statements on a Personal
Financial Statement (PFS) when applying for a $1.5 million SBA guaranteed loan. The OIG investigation
determined that the individual substantially overvalued the assets claimed on the PFS and falsely claimed
to have never filed for bankruptcy. The Agency also agreed with this OIG recommendation and issued a
notice of proposed debarment.

OIG Reviews of Proposed Agency Regulations and Initiatives Lead to Improved Program Controls

As part of its oversight of Agency programs and operations, each year the OIG reviews a large number of
SBA-proposed regulations, operating procedures and other directives to determine whether the Agency is
implementing adequate controls and whether the proposed action could lead to increased waste, fraud,
abuse or inefficiencies. Frequently, OIG comments identify material weaknesses and lead to significant
improvements in the quality of the proposed action. During the reporting period, the OIG reviewed 77
proposed actions and submitted comments on 38 of these initiatives.

During this reporting period, the OIG identified significant concerns and, through agency adoption of
OIG recommendations, prompted more robust controls in and enhancements of various agency directives.
For example, OIG comments led to strengthening of proposals arising under the 7(a) program, such as the
Patriot Express and Lender Advantage pilot initiatives, and improvements to proposed revisions of SBA
lender oversight regulations. In addition, the OIG noted material weaknesses in commenting on several
important procurement directives, such as proposed revisions to SBA’s size and 8(a) program regulations,
                                                      and intended modifications to 8(a) program
…the OIG submitted comments identifying key           operating procedures regarding the mentor-protégé
recommendations to promote accountability and program, the annual review process, and
oversight in proposed procedures…                     performance of surveillance reviews of procuring
                                                      agency oversight of 8(a) program compliance. As
another example, the OIG submitted comments identifying key recommendations to promote
accountability and oversight in proposed procedures governing the acceptance of cash gifts from external
parties and the administration of cosponsored events.

OIG Fraud Awareness Briefings

During this reporting period, the OIG conducted 13 fraud awareness presentations for over 1,000
representatives of lending institutions, SBA, other federal and local agencies, and law enforcement
organizations. Topics included loan agent and lender fraud, as well as fraud indicators in SBA’s loan,
8(a), government contracting, and surety bond programs.




                                                   26
                                                    Statistical Highlights

                                         6-Month Productivity Statistics
                                    April 1, 2007, through September 30, 2007

Summary of Office-Wide Dollar Accomplishments                                                                                                        Totals

A.   Potential Investigative Recoveries and Fines ......................................................................... $7,123,781
B.   Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $3,304,724
C.   Loans Not Made as a Result of Name Checks ..................................................................... $18,079,468
D.   Disallowed Costs Agreed to by Management ........................................................................... $356,643
E.   Recommendations that Funds Be Put to Better
      Use Agreed to by Management .......................................................................................... $31,980,000

     Total..................................................................................................................................... $60,844,616

Efficiency and Effectiveness Activities Related to Audits and Other Reports

A. Reports Issued ...................................................................................................................................... 15
B. Recommendations Issued ..................................................................................................................... 48
C. Dollar Value of Costs Questioned............................................................................................... $36,407
D. Dollar Value of Recommendations that Funds
    Be Put to Better Use ........................................................................................................... $31,980,000
E. Collections as a Result of Questioned Costs ................................................................................ $41,666

Audit and Report Follow-up Activities

A. Recommendations for which Management Decisions were made
    During the Reporting Period .............................................................................................................. 81
B. Disallowed Costs Agreed to by Management ........................................................................... $356,643
C. Dollar Value of Recommendations that Funds Be Put to Better Use
    Agreed to by Management ................................................................................................. $31,980,000
D. Recommendations without a Management Decision at End of Reporting Period ............................... 28

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation Reviewed ............................................................................................................................. 2
B. Regulations Reviewed ............................................................................................................................ 4
C. Standard Operating Procedures and Other Issuances* Reviewed ........................................................ 71

     Total..................................................................................................................................................... 77

  * This category includes policy notices, procedural notices, Administrator’s action memoranda, and other Agency
    initiatives, which frequently involve the implementation of new programs and policies.




                                                                              27
                                                    Statistical Highlights

                                         6-Month Productivity Statistics
                                    April 1, 2007, through September 30, 2007

Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases ................................................................................................................ 53
B.   Convictions from OIG Cases.............................................................................................................. 42∗
C.   Cases Opened ....................................................................................................................................... 43
D.   Cases Closed......................................................................................................................................... 34

Investigations Recoveries and Management Avoidances

A Potential Recoveries and Fines as a Result of
    OIG Investigations ............................................................................................................... $7,123,781
B. Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $3,304,724
C. Loans Not Approved as a Result of the Name
    Check Program ................................................................................................................... $18,079,468

     Total..................................................................................................................................... $28,507,973

SBA Personnel Actions Taken as a Result of Investigations

A    Dismissals............................................................................................................................................... 0
B.   Resignations/Retirements ....................................................................................................................... 0
C.   Suspensions ............................................................................................................................................ 0
D.   Reprimands............................................................................................................................................. 0
E.   Other....................................................................................................................................................... 1

Program Actions Taken as a Result of Investigations

A.   Debarments Recommended to the Agency .......................................................................................... 11
B.   Debarments Pending at the Agency ..................................................................................................... 17
C.   Proposed Debarments Issued by the Agency ......................................................................................... 8
D.   Final Debarments Issued by the Agency ................................................................................................ 0
E.   Proposed Debarments Declined by the Agency ..................................................................................... 0

OIG Hotline Operation Activities

A.   Total Fraud Line Calls/Letters............................................................................................................ 204
B.   Total Calls/Letters Referred to Investigations Division ....................................................................... 31
C.   Total Calls/Letters Referred to SBA or Other Federal Investigative Agencies.................................... 45
D.   Total Calls/Letters Referred to Other Entities...................................................................................... 38
E.   Total Calls/Letters Needing No Action ................................................................................................ 90



  * Includes one indictment/conviction that occurred in a previous period but was not reported.

                                                                              28
                                                    Statistical Highlights

                                      Full Year Productivity Statistics
                                 October 1, 2006, through September 30, 2007

Office-Wide Dollar Accomplishments                                                                                                                  Totals

A.   Potential Investigative Recoveries and Fines ....................................................................... $20,791,370
B.   Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $9,717,113
C.   Loans Not Made as a Result of Name Checks ..................................................................... $39,680,038
D.   Disallowed Costs Agreed to by Management ...................................................................... $27,567,922
E.   Recommendations that Funds Be Put to Better
      Use Agreed to by Management .......................................................................................... $31,980,000

     Total................................................................................................................................... $129,736,443

Efficiency and Effectiveness Activities

A. Reports Issued ...................................................................................................................................... 34
B. Recommendations Issued ................................................................................................................... 138
C. Dollar Value of Costs Questioned........................................................................................ $28,009,202
D. Dollar Value of Recommendations that Funds
    Be Put to Better Use ........................................................................................................... $31,980,000
E. Collections as a Result of Questioned Costs .......................................................................... $1,057,423

Follow-up Activities

A. Recommendations for which Management Decisions were made
    During the Reporting Period ............................................................................................................ 155
B. Disallowed Costs Agreed to by Management ...................................................................... $27,567,922
C. Dollar Value of Recommendations that Funds Be Put to Better Use
    Agreed to by Management ................................................................................................. $31,980,000
D. Recommendations without a Management Decision at End of Reporting Period ............................... 28

Legislation/Regulations/ SOPs/Other Reviews

A. Legislation Reviewed ............................................................................................................................. 6
B. Regulations Reviewed .......................................................................................................................... 17
C. Standard Operating Procedures and Other Issuances* Reviewed ...................................................... 113

     Total................................................................................................................................................... 136

  * This category includes policy notices, procedural notices, Administrator’s action memoranda, and other Agency
    initiatives, which frequently involve the implementation of new programs and policies.




                                                                             29
                                                    Statistical Highlights

                                      Full Year Productivity Statistics
                                 October 1, 2006, through September 30, 2007

Summary of Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases .............................................................................................................. 80*
B.   Convictions from OIG Cases.............................................................................................................. 62*
C.   Cases Opened ....................................................................................................................................... 99
D.   Cases Closed......................................................................................................................................... 65

Summary of Recoveries and Management Avoidances

A Potential Recoveries and Fines as a Result of
    OIG Investigations ............................................................................................................. $20,791,370
B. Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $9,717,113
C. Loans Not Approved as a Result of the Name
    Check Program ................................................................................................................... $39,680,038

     Total..................................................................................................................................... $70,188,521

SBA Personnel Actions Taken as a Result of Investigations

A    Dismissals............................................................................................................................................... 0
B.   Resignations/Retirements ....................................................................................................................... 0
C.   Suspensions ............................................................................................................................................ 0
D.   Reprimands............................................................................................................................................. 0
E.   Other....................................................................................................................................................... 1

Program Actions Taken as a Result of Investigations

A.   Debarments Recommended to the Agency .......................................................................................... 17
B.   Debarments Pending at the Agency ..................................................................................................... 23
C.   Proposed Debarments Issued by the Agency ....................................................................................... 12
D.   Final Debarments Issued by the Agency ................................................................................................ 6
E.   Proposed Debarments Declined by the Agency ..................................................................................... 1

OIG Hotline Operation Activities

A.   Total Fraud Line Calls/Letters............................................................................................................ 370
B.   Total Calls/Letters Referred to Investigations Division ....................................................................... 61
C.   Total Calls/Letters Referred to SBA or Other Federal Investigative Agencies.................................... 55
D.   Total Calls/Letters Referred to Other Entities.................................................................................... 101
E.   Total Calls/Letters Needing No Action .............................................................................................. 153

  * Includes one indictment that occurred in a previous period but was not reported.
  ** Includes two convictions that occurred in a previous period but were not reported.


                                                                              30
                                      Appendices

                                           Appendix I
                                      OIG Reports Issued
                           April 1, 2007 through September 30, 2007

                                              Report       Issue      Questioned    Funds for
                   Title
                                             Number        Date         Costs       Better Use
                                        Disaster Loans
Audit of Borrower Acceptance of
                                                  7-20       4/17/07           $0           $0
Disbursements
Securing Collateral for Disaster Loan
                                                  7-22        5/9/07           $0           $0
Disbursements
Duplicate Benefit Adjustments to Disaster
Assistance Loans Associated with Housing          7-25       5/15/07           $0           $0
and Urban Development Grants
Audit of Liquidation of Disaster Loans            7-26        6/1/07           $0           $0
Quality Assurance Reviews of Loss
                                                  7-29       7/23/07           $0           $0
Verifications
Report of the Cancellation of Approved
Disaster Loans to Individuals and Businesses      7-30        9/7/07           $0           $0
Impacted by the Gulf Coast Hurricanes
The Quality of Loans Processed Under the
                                                  7-34       9/28/07           $0   $31,980,000
Expedited Disaster Loan Program
   Program Subtotal                                 7                          $0   $31,980,000
                                   Small Business Access to Capital
SBA's Use of the Loan and Lender Monitoring
                                                  7-21        5/2/07           $0           $0
System
Guarantee Purchase Process for Section 7(a)
Loans at the National Guaranty Purchase           7-23        5/8/07      $36,407           $0
Center
SBA's Oversight of Business Loan Center,
                                                  7-28       7/11/07           $0           $0
LLC
ICW Group                                         7-32       9/27/07           $0           $0
   Program Subtotal                                 4                     $36,407           $0
                Small Business Development, Contracting, Education, and Training
Review of SBA's Monitoring and Support of
8(a) Procurements Related to the Gulf Coast       7-24       5/10/07           $0           $0
hurricanes of 2005
Size Determinations Made By District Offices      7-27       6/27/07           $0           $0
Review of SBA's Subcontracting Assistance
                                                  7-33       9/28/07           $0           $0
Program
   Program Subtotal                                 3                          $0           $0
                                        Agency Management
Audit of E-Application System                     7-31       9/27/07           $0            $0
   Program Subtotal                                 1                          $0            $0
       TOTALS (all programs)                       15                     $36,407   $31,980,000


                                              31
                                            Appendices

                                            Appendix II
                                  OIG Reports with Questioned Costs

                                                          Recommend-           Questioned       Unsupported
                                           Reports
                                                            ations*             Costs**           Costs**
A.    No management decision made
                                               4                 4              $1,354,394        $1,073,715
      by March 31, 2007
      Issued during this reporting             2                 2                $36,407                 $0
B.
      period
      Universe from which
      management decisions could be
                                               6                 6              $1,390,801        $1,073,715
      made in this reporting period –
      Subtotals
      Management decision(s) made
C.                                             4                 4               $356,643                 $0
      during this reporting period
      (i) Disallowed costs                                                       $356,643                 $0
      (ii) Costs not disallowed                                                        $0                 $0
      No management decision
D.                                             2                 2              $1,034,158        $1,073,715
      made by September 30, 2007
*     Reports may have more than one recommendation.
**    Questioned costs are those which are found to be improper, whereas unsupported costs may be proper but
      lack documentation.
***   Information is different from what was previously reported due to database corrections.


                                      Appendix III
              OIG Reports with Recommendations that Funds Be Put to Better Use

                                                                                          Recommended
                                                                     Recommend-
                                                       Reports                           Funds For Better
                                                                       ations*
                                                                                               Use
      No management decision made by
A.                                                         1               1                        $293,823
      September 30, 2006***
B.    Issued during this reporting period                  1               1                     $31,980,000
      Universe from which management
      decisions could be made in this reporting            2               2                     $32,273,823
      period – Subtotals
      Management decision(s) made during this
C.                                                         1               1                     $31,980,000
      reporting period
      (i) Recommendations agreed to by SBA
                                                           1               1                     $31,980,000
           management
      (ii) Recommendations not agreed to by
                                                           0               0                              $0
           SBA management
      No management decision made by
D.                                                         1               1                        $293,823
      September 30, 2007
*     Reports may have more than one recommendation.
***   Information is different from what was previously reported due to database corrections.



                                                     32
                                            Appendices

                                           Appendix IV
                         OIG Reports with Non-Monetary Recommendations

                                                                              Reports     Recommendations
A.    No management decision made by September 30, 2006***                       17                 56
B.    Issued during this reporting period                                        14                 45
      Universe from which management decisions could be made in
                                                                                 31                101
      this reporting period – Subtotals
      Management decision(s) made (for at least one
C.                                                                               22                 76
      recommendation in the report) during this reporting period
      No management decision made (for at least one
D.                                                                               9                  25
      recommendation in the report) by September 30, 2007 *
*     Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single
      report may have recommendations that fall under both C. & D.
***   Information is different from what was previously reported due to database corrections.


                                         Appendix V
                          OIG Reports From Prior Semiannual Periods
                  with Overdue Management Decisions as of September 30, 2007

                                            Report        Date
                 Title                                                                 Status
                                            Number       Issued
Review of a Cooperative Agreement                                    Agency has not responded to one
                                              5-11      2/11/05
to HP Small Business Foundation                                      recommendation made in the report.
Audit of the Contract Bundling                                       Agency has not responded to four
                                              5-20      5/20/05
Process                                                              recommendations made in the report.
                                                                     Agency has not responded to one
Audit of an SBA-Guaranteed Loan               6-22      5/17/06
                                                                     recommendation in the report.




                                                      33
                                                Appendices

                                           Appendix VI
                      OIG Reports Without Final Action as of September 30, 2007

                                                                                                             Final
                                                                                          Date of
Report                                                                      Date                             Action
                                       Title                                            Management
Number                                                                     Issued                            Target
                                                                                         Decision
                                                                                                              Date
  0-14       7(a) Service Fee Collections                                 3/30/00           8/22/00         12/31/04
             SBA’s Administration of Minority Business
  0-30       Enterprise Legal Defense and Education Fund                  9/30/00           3/26/01             **
             Cosponsorship
             SBA’s Information Systems Controls –
  2-18                                                                     5/6/02           6/1/03           12/1/03
             FY 2001
             Audit of Internal Control Over Colson Services
             Corporation’s Contract as Central Servicing
  2-29                                                                    9/16/02          12/12/02          8/15/08
             Agent for SBA’s Certified Development
             Company Loan Program
             SBA’s Oversight of the Fiscal Transfer Agent
  3-08                                                                    1/30/03           4/15/07          6/30/07
             for the 7(a) Loan Program
             SBA’s Information System Controls for
  3-20                                                                    3/31/03           9/30/03          4/30/04
             FY 2002
  3-30       Early Default Card Systems, Inc                              6/19/03          12/21/04          6/30/07
             SBA's Compliance with JFMIP Property
  3-34                                                                    7/23/03             ***               **
             Management System Requirements
  3-35       National Women’s Business Council                            7/28/03            ***            12/31/05
  4-13       Audit of an Early Defaulted Loan                              3/2/04           4/6/04          6/30/07
             SBA’s Administration of the Procurement
  4-16       Activities of Asset Sale Due Diligence                       3/17/04             ***             5/2/05
             Contracts and Task Orders
             Business Development Provided by SBA’s 8(a)
  4-22                                                                     6/2/04           7/14/04             **
             Business Development Program
  4-28       Audit of an SBA-Guaranteed Loan                              7/9/04            10/6/04          6/30/07
  4-36       Audit of an Early Defaulted Loan                             8/10/04           10/6/04          3/31/05
             Memorandum Advisory Report – the Transfer
  4-39       of Operations to the National Guaranty                       8/31/04           4/15/07          6/30/07
             Purchase Center
             Audit of a SBA Guarantied Loan to Elatec
  4-40       Technology Corporation and HK Equipment,                     9/13/04           4/5/06           6/30/07
             Inc.
             Audit of Selected SBA General Support
  4-41                                                                    9/10/04             ***               **
             Systems
  4-42       Audit of SBA's Email System                                  9/10/04             ***               **
             Audit of Early Defaulted Loan to Big Z Travel
  4-43                                                                    9/17/04           4/5/07           6/30/07
             Center
** Target dates vary with different recommendations.   *** Management decision dates vary with different recommendations.




                                                          34
                                                Appendices

                                           Appendix VI
                      OIG Reports Without Final Action as of September 30, 2007

                                                                                                             Final
                                                                                          Date of
Report                                                                      Date                             Action
                                       Title                                            Management
Number                                                                     Issued                            Target
                                                                                         Decision
                                                                                                              Date
             SBA-Sponsored and Cosponsored Events
  4-44                                                                    9/24/04             ***            9/30/05
             Conducted by District Offices
             Review of the Small Disadvantaged Business
  5-04                                                                    11/4/04           4/1/05           9/30/05
             Certification Program
             Audit of SBA’s Information Systems Controls –
  5-12                                                                    2/24/05             ***               **
             FY 2004
             SBA Small Business Procurement Awards are
  5-14                                                                    2/24/05           8/17/06          6/30/07
             not Always Going to Small Business
  5-20       Audit of the Contract Bundling Process                       5/20/05           5/23/06         12/30/06
             SBA’s Administration of its Special
  5-23                                                                    9/24/04             ***               **
             Appropriation Grants
             Criteria For Overcoming The Presumption of
  5-24                                                                    9/28/05             ***               **
             Social Disadvantage is Needed
  5-28       Review of SBA Procedures For Cash Gifts                      9/30/05           2/23/06          6/30/06
             Independent Evaluation of SBA’s Information
  6-01                                                                    10/7/05             ***               **
             Security Program
  6-04       Audit of SBA's FY 2005 Financial Statements                 11/14/05           5/10/06             **
             FY 2005 Financial Statements Management
  6-10                                                                    1/18/06             ***               **
             Letter
             The Central Contractor Registration Needs To
  6-18                                                                    3/21/06           4/3/06           9/30/06
             Be Modified
             Review of A Company's 8(A) Business
  6-19                                                                    3/30/06           8/16/06          9/30/06
             Development Program Eligibility
  7-03       Audit of SBA's FY 2006 Financial Statements                 11/15/06          12/15/06          6/30/07
             Audit of an SBA-Guaranteed Loan to Just a Cut
  7-06                                                                   12/28/07           1/30/07          6/30/07
             Lawn Care, Inc
             Audit of the SBAExpress and Community
  7-08       Express Loan Purchase and Liquidations                      12/29/06           12/4/06             **
             Process
  7-11       Audit of SBA's F/S Management Letter                         1/17/07             ***               **
             Review of the Small Business Administration's
  7-13                                                                    2/09/07             ***               **
             Protection of Sensitive Agency Information
  7-16       Vulnerability Technology Security Assessment                 3/6/07            3/7/07              **
  7-27       Size Determinations Made by District Offices                 6/27/07           7/18/07             **
** Target dates vary with different recommendations.   *** Management decision dates vary with different recommendations.




                                                          35
                                            Appendices

                                           Appendix VII
                            Summary of Significant Recommendations
                            From Prior Semiannual Reporting Periods
                           Without Final Action as of September 30, 2007*

                                                                                  Date of
Report           Date                                                                        Final Action
                                         Recommendation                         Management
Number          Issued                                                                       Target Date
                                                                                 Decision
   2-18         5/6/02      Develop an Agency-wide information                    6/28/02       3/1/05
                            security plan to establish and implement
                            the policies, procedures and practices for
                            the following: (1) full integration of the
                            information security approach and
                            implementation process; (2) coordination
                            among program offices to support their
                            security needs; (3) guidance to the
                            program office to implement information
                            system security controls; and (4) methods
                            to monitor the effectiveness of each part
                            of information technology security.
   3-08        1/30/03      Initiate a new procurement action for                12/10/03      3/31/06
                            fiscal transfer agent activities and
                            terminate the existing contract with the
                            fiscal transfer agent when a new contract
                            can be enacted.
   3-08        1/30/03      Review fiscal transfer agent activities and          10/15/03      3/31/06
                            identify contract costs for fees and
                            services. Report these contract costs in
                            proposed Master Reserve Fund financial
                            statements so future fiscal transfer agent
                            contracts will have historical cost data for
                            comparison purposes.
   4-16        3/17/04      Develop and implement procedures to                   5/12/04      5/02/05
                            monitor contractor compliance with the
                            50 percent rule when applicable.
   4-16        3/17/04      Ensure the amount of subcontracting is                5/12/04      5/02/05
                            reviewed and documented in the contract
                            file for awards of 8(a) and small business
                            set-aside contracts and task orders to
                            small businesses.
   4-16        3/17/04      Revise SOP on Procurement and Grants                  5/12/04      5/02/05
                            Management as soon as possible,
                            incorporate policies to address the
                            outstanding items described above within
                            six months of the issuance of this report.
   4-28         7/9/04      Seek recovery of $142,549 from the 7(a)               10/6/04      3/31/05
                            lender.
* These are a subset of the universe of recommendations without final action.

                                                      36
                                            Appendices

                                           Appendix VII
                            Summary of Significant Recommendations
                            From Prior Semiannual Reporting Periods
                           Without Final Action as of September 30, 2007*

                                                                                  Date of
Report          Date                                                                         Final Action
                                        Recommendation                          Management
Number         Issued                                                                        Target Date
                                                                                 Decision
  4-36        8/10/04     Seek recovery of the SBA guaranty repair                10/6/04      3/31/05
                          of $740,000 from the 7(a) lender.
  4-39        8/31/04     Determine the appropriate number of loan                4/13/05      9/30/05
                          officers, supervisors and attorneys to be
                          assigned to the Herndon center by
                          (1) establishing the elements of quality for
                          the purchase and liquidation action review
                          process; (2) determining how much time it
                          takes to complete a quality review at each
                          level (loan officer, supervisor, attorney);
                          and (3) computing the staffing levels
                          needed to complete the estimated annual
                          purchase and liquidation action workloads
                          at an acceptable level of quality.
  5-04        11/4/04     Develop and implement procedures to                     4/1/05       9/30/05
                          ensure that Small Disadvantaged Business
                          reviewers properly apply all four criteria
                          for determining economic disadvantage,
                          per 13 CFR 124.104(c), using 8(a) Program
                          thresholds for maximum income and total
                          assets, and industry financial performance
                          comparisons.
* These are a subset of the universe of recommendations without final action.




                                                      37
                                            Appendices

                                           Appendix VII
                            Summary of Significant Recommendations
                            From Prior Semiannual Reporting Periods
                           Without Final Action as of September 30, 2007*

                                                                                  Date of       Final
Report         Date
                                        Recommendation                          Management     Action
Number        Issued
                                                                                 Decision    Target Date
   5-12      2/24/05     For all SBA internal and contractor                      4/13/05      3/31/06
                         supported general support systems and
                         major applications, e.g., Egan Mainframe,
                         SBA and Corio UNIX, Network and
                         Windows 2000; Loan Accounting System
                         (LAS), Sybase, Mainframe, Joint
                         Accounting and Administration
                         Management System (JAAMS) Oracle, and
                         related application functions: (1) develop
                         and document policies and procedures
                         clearly outlining what activities should be
                         logged, who should be responsible for
                         reviewing logs, what the logs should be
                         reviewed for, how often logs should be
                         reviewed, and how long logs should be
                         retained; (2) assign responsibility within the
                         Office of the Chief Information Officer for
                         the review of application and general
                         support system security logs; and (3) retain
                         audit logs for a sufficient period of time (at
                         least 90 days).
  7-03      11/15/06     Ensure that system owners for DCMS,                      6/29/07     10/30/07
                         FRIS, JAAMS and LAS standardize
                         software change requests and that software
                         change testing documentation is developed
                         in a more consistent and complete manner.
  7-06      12/28/06     Seek recovery $28,660 from the lender on                 1/30/07      6/30/07
                         the guaranty paid.
  7-08      12/29/06     Determine if lender actions warrant a denial             12/4/07      5/31/07
                         of liability on $14,232 in guaranties
                         associated with the two loans that were
                         either missing a Form 1919 or where the
                         form was incomplete; and $9,015 on
                         guaranty.
  7-08      12/29/06     Determine if loan proceeds on the 45 loans               12/4/07      5/31/07
                         sampled during our audit were used in
                         accordance with the terms of the loan
                         authorizations, and take appropriate
                         corrective actions.
* These are a subset of the universe of recommendations without final action.

                                                      38
                                            Appendices

                                           Appendix VII
                            Summary of Significant Recommendations
                            From Prior Semiannual Reporting Periods
                           Without Final Action as of September 30, 2007*

                                                                                  Date of
Report         Date                                                                          Final Action
                                        Recommendation                          Management
Number        Issued                                                                         Target Date
                                                                                 Decision
 7-08       12/29/06     Recover $7,414 from a lender that awarded                12/4/07      5/31/07
                         an SBA loan to an ineligible company.
 7-08       12/29/06     Review the 2,729 loans for compliance with               12/4/07      5/31/07
                         SBA rules and regulations and improper
                         payments.
 7-08       12/29/06     Recover $27,134 for the two purchased                    12/4/07      5/31/07
                         SBA Express loans reviewed for which the
                         lender failed to disclose material facts.
* These are a subset of the universe of recommendations without final action.




                                                      39
                                         Appendices

                                        Appendix VIII
                          Summary of Significant Recommendations
                          April 1, 2007 through September 30, 2007

Report                                     Date
                     Title                                         Recommendation
Number                                    Issued
                                                    Ensure in future campaigns that performance
         Audit of Borrower                          goals and associated awards are based on
 7-20                                     4/17/07
         Acceptance of Disbursements                reasonable time frames that consider customer
                                                    service and legal requirements.
                                                    Establish a method, based on a specific standard
         SBA's Use of the Loan and                  or other metrics, for assigning risk ratings that
 7-21                                     5/2/02
         Lender Monitoring System                   more accurately reflect the risk profiles of
                                                    lenders.
                                                    Develop an on-site review plan or agreed-upon-
         SBA's Use of the Loan and                  procedures for all high-risk 7(a) lenders with
 7-21                                     5/2/02
         Lender Monitoring System                   guaranteed loan portfolios in excess of $4
                                                    million.
         Guarantee Purchase Process                 Seek recovery of $36,407 on the guaranties paid
         for Section 7(a) Loans at the              on the 6 loans listed in the report.
 7-23                                     5/8/07
         National Guaranty Purchase
         Center
         Guarantee Purchase Process                 Develop a plan to improve the quality of
         for Section 7(a) Loans at the              purchase reviews performed by the National
 7-23                                     5/8/07
         National Guaranty Purchase                 Guaranty Purchase Center and ensure purchase
         Center                                     decisions undergo adequate supervisory review.
                                                    Include in its A-123 report on management
         Guarantee Purchase Process
                                                    controls the level of risk associated with the
         for Section 7(a) Loans at the
 7-23                                     5/8/07    purchase review process and describe the risk in
         National Guaranty Purchase
                                                    reporting its estimate of improper payments in
         Center
                                                    the Agency’s budget.
                                                    Notify procuring agencies that have partnership
                                                    agreements with SBA that, according to those
         Review of SBA's Monitoring                 partnership agreements, they are required to
         and Support of 8(a)                        provide a copy of any contract, as defined in
 7-24                                     5/10/07
         Procurements Related to the                FAR 2.101, including basic contracts, orders,
         Gulf Coast hurricanes of 2005              modifications, and purchase orders, to the SBA
                                                    servicing district office within 15 working days
                                                    of the date of award.
                                                    Develop and implement procedures to ensure
         Audit of Liquidation of                    that all the names and identification numbers of
 7-26                                     6/1/07
         Disaster Loans                             delinquent borrowers are entered into the SBA
                                                    database and transferred to Treasury.




                                               40
                                         Appendices

                                       Appendix VIII
                         Summary of Significant Recommendations
                         April 1, 2007 through September 30, 2007

Report                                     Date
                     Title                                         Recommendation
Number                                    Issued
                                                    Follow up on the 88 loans that were miscoded
         Audit of Liquidation of                    or which did not identify all responsible parties
 7-26                                     6/1/07
         Disaster Loans                             to ensure that Treasury was sent the correct or
                                                    missing information.
                                                    Take further action to mitigate the risk posed
                                                    and to promote consistent and uniform
                                                    enforcement actions by developing standard
         SBA's Oversight of Business
 7-28                                     7/11/07   operating procedures to complement revised 13
         Loan Center, LLC
                                                    CFR that describe circumstances under which it
                                                    will suspend or revoke PLP authority or how it
                                                    will do so.
                                                    Take further action to mitigate the risk posed
                                                    and to promote consistent and uniform
                                                    enforcement actions by identifying actions
         SBA's Oversight of Business
 7-28                                     7/11/07   needed to address the potential conflict resulting
         Loan Center, LLC
                                                    from Office for Lender Oversight’s and Office
                                                    of Financial Assistance’s placement in Office of
                                                    Capital Access.
                                                    Pursue a reassignment of Quality Assurance
         Quality Assurance Reviews                  Reviews (QAR) responsibilities to an SBA
 7-29                                     7/23/07
         of Loss Verifications                      organization outside of Office of Disaster
                                                    Assistance.
         Quality Assurance Reviews                  Consider disciplinary action against the SBA
 7-29                                     7/23/07
         of Loss Verifications                      supervisor who altered the QAR results.
                                                    Reconsider the Agency’s loan policy on the
         Report of the Cancellation of              reinstatement deadline for the 6,557 canceled
         Approved Disaster Loans to                 Gulf Coast hurricane loans that were not
 7-30    Individuals and Businesses       9/27/07   reinstated (7,752 loans canceled less the 1,195
         Impacted by the Gulf Coast                 that were reinstated) and notify the borrowers
         Hurricanes                                 that extensions may be granted for
                                                    reinstatement, as appropriate.
                                                    Establish appropriate controls to ensure data
         Audit of E-Application                     entered into E-Application is accurately
 7-31                                     9/27/07
         System                                     transferred to the Electronic 8(a) Review
                                                    System.
                                                    Submit annual reports on the Federal
         Review of SBA's                            government’s subcontracting goal achievements
 7-33    Subcontracting Assistance        9/28/07   more timely, including the number and dollar
         Program                                    value of subcontracts awarded to small
                                                    businesses, as required by law.



                                               41
                                      Appendices

                                         Appendix VIII
                           Summary of Significant Recommendations
                           April 1, 2007 through September 30, 2007

Report                                 Date
                   Title                                             Recommendation
Number                                Issued
                                                     Review all 20,708 canceled loans that were
         The Quality of Loans                        approved under expedited procedures to identify
         Processed Under the                         applicants who lacked repayment ability, notify
 7-34                                 9/28/07
         Expedited Disaster Loan                     those applicants of their potential eligibility for
         Program                                     FEMA assistance, and make the appropriate
                                                     FEMA referrals
         The Quality of Loans                        Initiate proposed action to review the
         Processed Under the                         creditworthiness of borrowers associated with the
 7-34                                 9/28/07
         Expedited Disaster Loan                     615 undisbursed home loans and refer those
         Program                                     borrowers to FEMA, as appropriate.




                                                42
                                           Appendices

                                           Appendix IX
                 Events/Activities Where SBA Used its Cosponsorship Authority*
                                  Small Business Act, Section 4(h)
                                    4/1/2007 through 9/30/2007

                                Event     Event           Location of
 Name/Subject of Event                                                      Name(s) of Cosponsor(s)
                              Start Date End Date           Event
Translation from English to
Chinese & Printing of the                             San Francisco,
                               4/13/07     5/24/07                   United Commercial Bank
Small Business Start-Up                               CA
Kit
                                                                    Business Development Finance
Recognizing Excellence in
                               4/19/07     4/17/07    Columbus, OH Corp, Huntington National Bank,
Small Business
                                                                    JP Morgan Chase
Small Pharmaceutical                                                Food and Drug Administration's
                                                      College Park,
Business Educational           4/25/07     4/10/07                  Center for Drug Evaluation and
                                                      MD
Forum                                                               Research (FDA)
SBA Expo, Business
Matchmaker & Small                                                      SCORE Buffalo Niagara, Business
                               5/9/07      5/7/07     Buffalo, NY
Business Week Awards                                                    First
Luncheon Buffalo/Niagara
SBA/VA Small Business                                                   U.S. Department of Veterans
                               5/15/07     5/14/07    Miami, FL
Summit                                                                  Affairs
National Technology                                   Washington,       Association of Women's Business
                               5/21/07     5/15/07
Leadership Summit                                     DC                Centers
Small Business Week
Breakfast and Awards           5/23/07     4/24/07    Hato Rey, PR      Puerto Rico Bankers Association
Ceremony
                                                                    Wilmington Local Development
Small Business Week                                                Corp., DelVal Business Finance
                               5/23/07     5/16/07    Claymont, DE
Awards Dinner                                                      Corp. and Chesapeake Business
                                                                   Finance Corp.
Small Business Week                                   Los Angeles, Los Angeles Chamber of
                               5/30/07     5/30/07
Awards Luncheon                                       CA           Commerce
                                                                   Connecticut Business and Industry
                                                                   Association; Connecticut Small
Connecticut XPO For                                                Business Development Center,
                               6/7/07      5/29/07    Hartford, CT
Business                                                           Central Connecticut State
                                                                   University Institute of Technology
                                                                   & Business Development
                                                                   Small Business Development
SBA Comes to Suffolk                                  Stony Brook, Center at Stony Brook University,
                               6/15/07     5/21/07
County                                                NY           Long Island High Technology
                                                                   Incubator, Inc.
   * The Agency provided this information based on approved cosponsorship agreements. Some events have not
     yet been held. This information has not been verified by the OIG.




                                                     43
                                              Appendices

                                              Appendix IX
                    Events/Activities Where SBA Used its Cosponsorship Authority*
                                     Small Business Act, Section 4(h)
                                       4/1/2007 through 9/30/2007

                                 Event     Event             Location of
 Name/Subject of Event                                                          Name(s) of Cosponsor(s)
                               Start Date End Date             Event
Disaster Preparedness                                                      Greater Richmond Chapter,
                                 7/13/07      6/28/07    Richmond, VA
Workshop                                                                   American Red Cross
SBA/HOBY International
                                                         Washington,       Hugh O'Brian Youth Leadership
Business and                     7/22/07      5/14/07
                                                         DC                (HOBY)
Entrepreneurship Program
                                                                           Denver Public Library, Minority &
 th                                                                        Women Chambers' Coalition, CO
8 Annual Small Business
                                 8/16/07      7/25/07    Denver, CO        SBDC, CO Minority & Women-
Resource Fair
                                                                           Owned Business Office, Denver
                                                                           SCORE Chapter
Spirit of Small Business 07                              Santa Barbara,
                                 8/16/07      7/30/07                   Pacific Coast Business Times
Awards Luncheon                                          CA
                                                                        Waterbury Regional Chamber of
Business Women’s Forum           9/20/07      5/24/07    Hartford, CT
                                                                        Commerce and Post University
Operation SAVE: Serving                                                 Citizen's First State Bank, MI
America's Veteran                9/27/07       9/7/07    Flint, MA      SBDC at Macomb County and
Entrepreneurs                                                           VetBizCentral of Flint MI
                                                                        Culpepper County Chamber of
Franchising Workshop             10/12/07     9/24/07    Culpeper, VA
                                                                        Commerce
Mt. Gilead Full Gospel
                                                                           Mt. Gilead Full Gospel
International Ministries         10/20/07     9/24/07    Richmond, VA
                                                                           International Ministries
Symposium
                                                                      The Office of US Senator Patrick
                                                                      Leahy, VT SBDC, US Department
                                                                      of Labor, Women’s Bureau, VT
                                                                      Agency of Transportation, VT
                                                                      Commission on Women, Women's
                                                                      Agricultural Network, VT
                                                                      Department of Economic
Vermont’s 11th Annual                                                 Development, VT WBC, VT
Women’s Economic                 11/3/07      7/30/07    Randolph, VT Attorney General, VT Department
Opportunity Conference                                                of Labor, VT Manufacturing
                                                                      Extension Center, VT Works for
                                                                      Women, VT Business Education
                                                                      Corporation, VT Agency of Human
                                                                      Services, Office of Economic
                                                                      Opportunity, VT Interactive
                                                                      Television, US Department of
                                                                      Agriculture
      * The Agency provided this information based on approved cosponsorship agreements. Some events have not
        yet been held. This information has not been verified by the OIG.

                                                        44
                                           Appendices

                                           Appendix IX
                 Events/Activities Where SBA Used its Cosponsorship Authority*
                                  Small Business Act, Section 4(h)
                                    4/1/2007 through 9/30/2007

                              Event     Event          Location of
 Name/Subject of Event                                                 Name(s) of Cosponsor(s)
                            Start Date End Date          Event
                                                      Washington,
The Presidents FORUM          11/14/07     7/11/07                 The Entrepreneurship Institute
                                                      DC
NY XPO For Business
                              11/28/07     7/31/07    New York, NY Event Management
Trade Show
Lunch and Learn (Brown         4/07 -                                 West Fargo Chamber of Commerce
                                           4/26/07    Fargo, ND
Bag) Seminars                  12/07                                  and West Fargo Public Library
AMERICAN EAST                                                         RI Small Business Development
                             8/26/07 -
Conference for SBA                         7/25/07    Newport, RI     Center at Johnson & Wales
                              8/28/07
Lenders                                                               University
                              8/28/07,
                               9/6/07,
Business Basics for
                              9/12/07,     7/19/07    Decatur, GA     DeKalb County Public Library
Entrepreneurs
                              9/17/07,
                              9/25/07
3rd Annual Service
Disabled & Veteran-                                                   Santa Fe Community College thru
                              8/29/07-                Albuquerque,
Owned Small Business                       5/24/07                    NM SBDC, NM Department of
                              8/31/07                 NM
Conference – Contacts for                                             Veterans Services
Contract Opportunities
Business Basics for          6/19/07 -                                The Atlanta-Fulton Public Library
                                           6/15/07    Atlanta, GA
Entrepreneurs                 8/21/07                                 System
Lunch and Learn (Brown       6/26/07 -                                Homebuilders Association of
                                           6/22/07    Fargo, ND
Bag) Seminars                12/18/07                                 Fargo-Moorhead
Smart Business Talk
WNET Roundtable
                             6/26/07 -                                Women's Employment Opportunity
Workshops; Business                        6/15/07    Atlanta, GA
                             11/27/07                                 Project, Inc.
Exchange Matchmaking
Event
                               5/2/07,
                               5/9/07,                                Circulo de la Hispanidad, Inc., La
Hispanic Small Business       5/16/07,                                Fuerza Unida CDC, Nassau County
                                           4/26/07    Elmont, NY
Development Conference        5/23/07,                                on behalf of the Office of Minority
                              5/30/07,                                Affairs
                               6/6/07
The Government                5/23/07,
Contractor Workshop           6/13/07,     5/11/07    Baltimore, MD Greater Baltimore Urban League
Series                        9/19/07
   * The Agency provided this information based on approved cosponsorship agreements. Some events have not
     yet been held. This information has not been verified by the OIG.




                                                     45
                                           Appendices

                                           Appendix IX
                 Events/Activities Where SBA Used its Cosponsorship Authority*
                                  Small Business Act, Section 4(h)
                                    4/1/2007 through 9/30/2007

                              Event     Event             Location of
 Name/Subject of Event                                                      Name(s) of Cosponsor(s)
                            Start Date End Date             Event
Women’s Network for
                              9/1/07 -                Powell &
Entrepreneurial Training                   7/25/07                      First National Bank & Trust
                              8/31/08                 Cody, WY
Roundtables
                                                                    Los Angeles County Department of
Los Angeles Regional                                  Studio City &
                             9/11/07 -                              Public Health, Los Angeles
Business Preparedness                      9/10/07    Los Angeles,
                              9/12/07                               Chamber of Commerce, Valley
Summit                                                CA
                                                                    Industry & Commerce Association
                                                                    Block Island Chamber of
Block Island Small           9/25/07 -                Block Island,
                                           8/22/07                  Commerce, Block Island Tourism
Business Day                  9/30/09                 RI
                                                                    Council
                                                                    City of Daly City and Community
                                                                    Development, Daly City Business
Your Small Business           9/6/07,                               Enterprise Center, Daly City Public
                                           7/31/07    Daly City, CA
Resources                     9/25/07                               Library- Westlake and San
                                                                    Francisco Small Business
                                                                    Development Center
   * The Agency provided this information based on approved cosponsorship agreements. Some events have not
     yet been held. This information has not been verified by the OIG.




                                                     46
                                       Appendices

                                          Appendix X
                                    Legal Actions Summary
                           April 1, 2007 through September 30, 2007

                                                                                           Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                          Jointly With
AL        DL      The owner of a charter plane company         Owner pled guilty.         IRS/CI,
                  produced fraudulent documents showing                                   AAPD
                  that SBA had released its lien against
                  two properties being held as collateral on
                  his $177,800 SBA disaster loan. The
                  owner received $92,526 from the sale of
                  the properties, which should have been
                  paid to the SBA as collateral for his
                  September 11 economic injury loan.
CA        BL      A borrower allegedly provided a false        Borrower charged in        LAPD,
                  social security number and false             state court via a felony   CDOI,
                  citizenship information when applying        complaint.                 DHS/ICE
                  for a $35,000 SBA Express loan, as well
                  as for two real estate loans.
CA       SBDC     A former high-ranking state official, who    Former official            FBI,
                  administered the Small Business              sentenced to 60            HUD/OIG
                  Development Center (SBDC) program            months probation, 6
                  for the SBA in California, received          months house arrest,
                  kickbacks from SBDC contractors. In          and $98,376 in
                  return, the contractors were awarded         restitution. One
                  contracts without competitive bids.          contractor sentenced
                                                               to 60 months
                                                               probation and a $2,000
                                                               fine. Second contactor
                                                               sentenced to 60
                                                               months probation and
                                                               30 days in a halfway
                                                               house. All three
                                                               ordered to perform
                                                               1000 hours or more of
                                                               community service.
 FL       BL      When applying for a $1.5 million 7(a)        Former owner               None
                  loan, a former hotel owner neglected to      sentenced to 3 years
                  disclose on his SBA Statement of             supervised release, 6
                  Personal History that he was a convicted     months home
                  felon.                                       detention, and
                                                               $269,000 restitution.




                                                47
                                       Appendices

                                          Appendix X
                                    Legal Actions Summary
                           April 1, 2007 through September 30, 2007

                                                                                        Investigated
State   Program      Alleged Violation(s) Prosecuted              Legal Action
                                                                                        Jointly With
 IL       BL      A husband and wife conspired to bribe       Wife pled guilty and      DHS/ICE
                  an SBA official in order to influence the   was sentenced to one
                  award of a $594,000 SBA 504 loan for        year probation.
                  their interstate trucking firm. The         Husband pled guilty
                  husband offered the official a $5,000       and is awaiting
                  bribe in exchange for overlooking the       sentencing.
                  fact that he falsely claimed to be a U.S.
                  citizen on his loan application.
 IL       BL      The former owner of an electrical supply    Former owner              FBI
                  firm provided false tax returns for his     sentenced to one year
                  company in order to induce a lender and     and one day in prison,
                  the SBA to approve a $1.1 million loan      three years supervised
                  to a couple wanting to purchase the         release, and $512,464
                  business.                                   in restitution.
LA        DL      A certified public accountant (CPA)         CPA indicted, pled        USSS
                  impersonated an SBA employee and            guilty, and is awaiting
                  provided false documentation in order to    sentencing.
                  obtain non-SBA loans totaling
                  approximately $2.9 million for her
                  employer.
MD        GC      A government employee is alleged to         Government employee       NARA/OIG
                  have used his government purchase card      and contractor both
                  to pay for goods and services that were     indicted.
                  never provided or provided at inflated
                  prices. The three businesses, from which
                  purchases were made, were all
                  purportedly operated by the same
                  contractor and listed on contracting
                  documents as being 8(a) certified, but
                  SBA has no record of such certifications.
MD        GC      A former West Virginia state official       State official and        FBI, NCIS,
                  allegedly provided confidential bid         project supervisor of     IRS/CI,
                  information to an SBA 8(a) firm, in         8(a) firm charged by      EPA/CID
                  exchange for money and other things of      criminal information.
                  value, in order to influence the awarding
                  of contracts. A project supervisor of
                  that 8(a) firm allegedly allowed
                  improper removal and storage of
                  asbestos containing material on
                  government contracts.



                                               48
                                       Appendices

                                          Appendix X
                                    Legal Actions Summary
                           April 1, 2007 through September 30, 2007

                                                                                       Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                       Jointly With
 MI       BL      Three individuals allegedly presented        Three individuals       USSS
                  false equity injection documents to a        indicted.
                  non-bank lender as a condition of
                  obtaining two SBA-guaranteed loans for
                  the purchase of gas stations/convenience
                  stores. The two loans total over $1.7
                  million.
 MI       BL      An individual made false statements          Individual charged by   USSS
                  concerning his employment history,           criminal information
                  financial resources, and the source of his   and pled guilty.
                  equity injection when applying for a
                  $1,212,000 SBA-guaranteed loan.
 MI       BL      An individual conspired with his brother     One brother pled          USSS
                  and others to fraudulently acquire a         guilty and was
                  $990,000 SBA-guaranteed loan issued by       sentenced to one year
                  a non-bank lender. The conspiracy was        and one day in federal
                  furthered through the use of a false sales   prison, 24 months
                  agreement, an inflated purchase price,       probation, and
                  and a bogus equity injection. The            restitution of
                  purpose of the scheme was to refinance       $658,809. This
                  and consolidate delinquent debts owed        restitution is to be paid
                  by one brother’s business using proceeds     jointly with the other
                  from the loan made to the other brother      brother, who has pled
                  who acted as a “straw buyer.”                guilty but has not yet
                                                               been sentenced.
 MI       BL      The president and the secretary of an auto President pled guilty       USSS
                  service center conspired with a loan         and was sentenced to 2
                  broker to fraudulently acquire a $1.1        years probation.
                  million SBA-guaranteed loan issued by a Secretary pled guilty
                  non-bank lender. In order to falsely satisfy and was sentenced to 3
                  the loan’s equity injection requirement,     years probation. Both
                  the individuals claimed that $210,000 in were ordered to pay
                  repairs and renovations had been made to joint restitution of
                  the auto repair center before the loan       $529,591. The loan
                  closing.                                     broker is a fugitive
                                                               and charges against
                                                               him remain pending.




                                                49
                                       Appendices

                                          Appendix X
                                    Legal Actions Summary
                           April 1, 2007 through September 30, 2007

                                                                                          Investigated
State   Program       Alleged Violation(s) Prosecuted               Legal Action
                                                                                          Jointly With
 MI       BL      An individual allegedly provided false        Individual indicted.      USSS
                  information concerning her financial
                  status and the required equity injection to
                  obtain an $825,000 SBA-guaranteed loan,
                  in name only, for her brother-in-law who
                  was the owner and intended operator of
                  the business.
 MI       BL      A former bank official participated in a      Former bank official      USSS
                  scheme to defraud the SBA by supplying        pled guilty.
                  false verifications of deposit for loan
                  applicants and giving a loan broker
                  unfunded official checks totaling more
                  than $2.8 million.
 MI       BL      An individual conspired with others to        Individual pled guilty.   USSS
                  obtain a $1,335,000 SBA-guaranteed            Two co-conspirators
                  loan from a non-bank lender to purchase       have been charged but
                  a gas station and convenience store. The      remain fugitives.
                  individual claimed he was going to be
                  the sole owner of the business when, in
                  fact, he had an undisclosed partner.
 MI       BL      The owner of a gas station and                The owner and a co-       USSS
                  convenience store conspired with others       conspirator pled
                  to fraudulently obtain a $944,000 SBA-        guilty.
                  guaranteed loan by acting as a “straw
                  purchaser” and using counterfeit bank
                  statements, cashier’s checks, a certificate
                  of deposit, and a gift affidavit to
                  document a bogus capital injection.
 MI       BL      The president and secretary of a gas          Each sentenced to one     USSS
                  station and convenience store falsely         year probation and a
                  represented that they made an equity          $2,500 fine. No
                  injection of $130,000 in order to obtain a    restitution ordered
                  $1,175,000 SBA-guaranteed loan.               since the loan remains
                                                                current.




                                                50
                                       Appendices

                                          Appendix X
                                    Legal Actions Summary
                           April 1, 2007 through September 30, 2007

                                                                                      Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                      Jointly With
MO        IA      An SBA branch manager is alleged to          Manager arrested,      FBI
                  have submitted a false Personal Financial    indicted, and placed
                  Statement in connection with an              on administrative
                  application for an $80,070 SBA Express       leave.
                  loan and to have failed to disclose this
                  SBA loan on his Confidential Financial
                  Disclosure Report. Agency conflict of
                  interest and ethics rules should have
                  prohibited the manager from receiving
                  this SBA Express loan due to his
                  position with SBA.
MS        DL      An individual provided false statements      Individual indicted    DHS/OIG,
                  regarding the location of his primary        and pled guilty.       USDA/OIG,
                  residence and his marital status in an                              MSAO
                  attempt to receive duplicate benefits. He
                  received $12,000 from the SBA.
MS        DL      When applying for an SBA personal            Loan denied due to     DHS/OIG,
                  property disaster loan, an individual        poor credit history.   USDA/OIG
                  falsely stated that property in his rented   Individual indicted    FBI
                  room had sustained damage as a result of     and pled guilty.
                  Hurricane Katrina.
MS        DL      An individual made false statements          The individual only    DHS/OIG,
                  regarding his residency in an attempt to     received the initial   MSAO
                  receive a $208,300 loan from the SBA         disbursement of
                  for Gulf Coast Hurricane benefits to         $10,000 and has pled
                  which he was not entitled.                   guilty.
MS        DL      A man and his wife provided false            Couple indicted and    FBI, MSAO
                  statements regarding their residency in      pled guilty.
                  an attempt to receive Gulf Coast
                  Hurricane benefits to which they were
                  not entitled. The couple received
                  $50,000 of the approved $112,500 loan
                  from the SBA.
MS        DL      A husband and wife are alleged to have       Couple indicted.       DHS/OIG,
                  provided false statements regarding the                             MSGA
                  location of their primary residence in an
                  attempt to receive disaster benefits to
                  which they were not entitled. They were
                  approved for a $121,900 SBA disaster
                  loan, as well as benefits from other
                  agencies.


                                                51
                                       Appendices

                                          Appendix X
                                    Legal Actions Summary
                           April 1, 2007 through September 30, 2007

                                                                                     Investigated
State   Program      Alleged Violation(s) Prosecuted             Legal Action
                                                                                     Jointly With
MS        DL      An individual claimed his secondary        Individual pled guilty  DHS/OIG,
                  address as his primary residence in an     and was sentenced to 5 USDA/OIG,
                  attempt to fraudulently receive disaster   months in prison, 5     MSAO
                  assistance funds. He was approved for a    months home
                  $78,900 loan from SBA, of which the        confinement, 2 years
                  initial $10,000 had been disbursed.        supervised release, a
                                                             $3,000 fine, and
                                                             restitution of $20,011.
 NJ       BL      A principal of a now defunct electronic    The principal of the    NJAG
                  imaging company obtained a. $1 million     imaging company, as
                  SBA-guaranteed loan for the purpose of     well as the owners of
                  purchasing machinery. The investigation    the machinery dealer,
                  found that instead of purchasing           entered the Pretrial
                  machinery, he used most of the proceeds    Intervention Program
                  for unauthorized purposes, including       requiring them to
                  buying out a former partner, paying        perform community
                  taxes, and making unauthorized             service and pay
                  payments to the two owners of the          restitution totaling
                  machinery dealer.                          $125,000.
NY        BL      An individual used a false Social          Individual pled guilty  FBI
                  Security number and failed to disclose
                  outstanding tax liens when applying for
                  two SBA-guaranteed loans totaling
                  $1,650,000.
NY        BL      Fifteen individuals allegedly used false   Fifteen individuals       FBI,
                  identification documents to obtain bank    indicted and arrested.    NYSAGO
                  loans, mortgage loans, credit cards, and
                  sell and transport stolen vehicles. Some
                  of the loans obtained in this scheme
                  included SBAExpress loans.
OH        BL      A former restaurant owner falsely stated   Former owner              DHS/ICE
                  that he was a U.S. citizen on his          sentenced to 1 year
                  application for a $50,000 SBAExpress       and 1 day in prison, 3
                  loan.                                      years supervised
                                                             release, a $3,000 fine,
                                                             and forfeiture of the
                                                             restaurant property or
                                                             $100,000.




                                                52
                                       Appendices

                                          Appendix X
                                    Legal Actions Summary
                           April 1, 2007 through September 30, 2007

                                                                                         Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                        Jointly With
 SD       BL      The part-owner of a marina provided          Part-owner pled guilty   IRS/CI
                  false tax returns in support of an           to IRS charges.
                  application for a $239,000 SBA 504 loan
                  to purchase property and build a new
                  marina.
TX        GC      Six individuals are involved in a            Six individuals          FBI, IRS/CI,
                  multimillion dollar bribery scheme           charged in a 47-count    USA/CID,
                  centered on fixed contracts between the      indictment. The          GSA/OIG,
                  Department of Defense and SBA-               indictment also seeks    DOI/OIG,
                  certified 8(a) firms.                        a monetary judgment      DCIS
                                                               of $1.2 million. Three
                                                               of the six have pled
                                                               guilty.
TX        BL      Seven individuals conspired to devise a      One individual           TCPA/CID
                  scheme to fraudulently obtain an SBA-        sentenced to 60
                  guaranteed loan of $2.4 million to           months in prison, 3
                  finance the purchase of a warehouse. The     years supervised
                  scheme involved misrepresenting the          release, and a $3,000
                  purchase price of the property, falsifying   fine; another
                  part of the equity injection, and            sentenced to 1 year
                  laundering approximately $473,000 of         probation. Three have
                  the loan proceeds.                           fled the country and
                                                               remain fugitives. One
                                                               has been previously
                                                               sentenced, and another
                                                               awaits sentencing.
TX        BL      The president of a lumber company and        Couple arrested and      HCSO
                  her common-law husband are alleged to        indicted.                SLPD
                  have falsely claimed ownership of
                  several vacant lots and offered these lots
                  to SBA as collateral in order to obtain a
                  $25,800 Economic Injury Disaster Loan.
TX        BL      Three family members conspired to            Three individuals        FBI
                  submit fraudulent documentation relating     indicted; two pled
                  to the capital injections required to        guilty.
                  obtain two SBA-guaranteed loans
                  totaling $1.6 million.




                                                53
                                       Appendices

                                          Appendix X
                                    Legal Actions Summary
                           April 1, 2007 through September 30, 2007

                                                                                         Investigated
State   Program      Alleged Violation(s) Prosecuted              Legal Action
                                                                                         Jointly With
TX        BL      The owner of a convenience store used       Owner indicted, pled       DHS/ICE,
                  an alias name when applying for and         guilty, and was            SSA/OIG
                  receiving a $1,070,000 SBA guaranteed       sentenced to time
                  loan.                                       already served and
                                                              deportation to his
                                                              home country.
UT        BL      Four individuals were involved in three     Four individuals           DHS/ICE,
                  separate schemes in which they provided     entered into the           SSA/OIG
                  false identity information when applying    Pretrial Diversion
                  for SBA loans, totaling over $200,000, to   Program and are
                  purchase or build restaurants.              required to keep
                                                              payments current on
                                                              their SBA loans.
VA        BL      The former president of a consulting firm   Former president           USPIS, IRS
                  and his wife were involved in an internet   sentenced to 84
                  scam to lure business owners into           months in prison, 3
                  applying for SBA loans. For a fee of at     years supervised
                  least $3,500, the firm guaranteed to        release, and restitution
                  provide a comprehensive business plan       of $2,755,281, to be
                  and an SBA-guaranteed loan to its           paid jointly with his
                  customers.                                  wife, and an additional
                                                              $217,779, to be paid
                                                              individually. Wife
                                                              sentenced to 36
                                                              months in prison and 3
                                                              years supervised
                                                              release.
WA        SB      The president of a now defunct              President indicted.        FBI, NICB
                  construction firm falsely stated to a
                  surety company that his firm was out of
                  funds when, in reality, he had diverted
                  contract proceeds of approximately
                  $87,000 for his personal use. This
                  resulted in the surety company paying
                  the firm’s subcontractors and suppliers
                  on defaulted jobs. SBA suffered a loss of
                  over $500,000 since it guarantees 70% of
                  the surety company’s losses.




                                               54
                                          Appendices

                                             Appendix X
                                       Legal Actions Summary
                              April 1, 2007 through September 30, 2007

                                                                                         Investigated
 State   Program         Alleged Violation(s) Prosecuted            Legal Action
                                                                                         Jointly With
 WA         BL       The former owner of a hauling business     Former owner pled        FBI, IRS/CI
                     made false statements to the bank and      guilty.
                     SBA regarding his company’s tax
                     liability in order to obtain a $750,000
                     SBA-guaranteed loan. He then sold
                     SBA collateral, hid the proceeds of the
                     sale, and laundered those proceeds.

Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Section 8(a) Business
Development; SBDC=Small Business Development Center; SB=Surety Bond Guarantee
Joint-investigation Federal Agency Acronyms: AAPD=Auburn Alabama Police Department; CDOI=California
Department of Insurance; DCIS=Defense Criminal Investigative Service; DHS/ICE=Department of Homeland
Security/Immigration and Customs Enforcement; DHS/OIG=Department of Homeland Security/OIG;
DOI/OIG=Department of Interior/OIG; EPA/CID=Environmental Protection Agency/Criminal Investigations
Division; FBI=Federal Bureau of Investigation; GSA/OIG=General Services Administration/OIG; HCSO=Hardin
County Sheriff’s Office; HUD/OIG=Department of Housing and Urban Development/OIG; IRS/CI=Internal
Revenue Service/Criminal Investigations; LAPD=Los Angeles Police Department; MSAO=Mississippi State
Auditor’s Office; MSGA= Mississippi State Grant Authority; NARA/OIG=National Archives and Records
Administration/OIG; NCIS=Naval Criminal Investigative Service; NICB=National Insurance Crime Bureau;
NJAGO=New Jersey Attorney General’s Office; NYSAGO=New York State Attorney General’s Office;
SLPD=Sour Lake Police Department; SSA/OIG=Social Security Administration/OIG; TCPA/CID=Texas Controller
of Public Accounts/Criminal Investigative Division; USA/CID=United States Army/Criminal Investigations
Division; USDA/OIG=U.S. Department of Agriculture/OIG; USPIS=United States Postal Inspection Service;
USSS=United States Secret Service




                                                  55
56
                                                                         Appendix XI
                                                                 Small Business Administration
                                                                  Office of Inspector General



                                                                              Inspector
                                                                               General
                                                                                                                            Counsel Division
                                                                          Deputy Inspector
                                                                             General




          Auditing Division                                                                Investigations Division                             Management and Policy
                                                        Security Operations                                                                          Division



                                 Business Development
57




     Credit Programs
                                   Programs Group
         Group                                                                Eastern Region             Central Region          Southern Region           Western Region

                                  Washington, DC
        Atlanta, GA
                                                                                 Atlanta, GA               Chicago, IL            New Orleans, LA            Denver, CO


        Chicago, IL            Financial Management
                                    & IT Group                                  Herndon, VA                Dallas, TX              Miami, FL                 Los Angeles, CA


       Herndon, VA                Washington, DC
                                                                               New York, NY                Detroit, MI                                       Tacoma, WA


      Los Angeles, CA
                              Disaster Programs Group                          Philadelphia, PA            Houston, TX


      Washington, DC
                                     Dallas, TX                                Washington, DC             Kansas City, MO




                                  New Orleans, LA




                                  Washington, DC
                           Make A Difference!

To promote integrity, economy, and efficiency, we encourage you to report instances of
fraud, waste, or mismanagement to the SBA OIG HOTLINE.*




                                         Call:
                               1-800-767-0385 (Toll Free)




                                Write or Visit:
                           U.S. Small Business Administration
                               Office of Inspector General
                                 Investigations Division
                            409 Third Street, SW. (5th Floor)
                                 Washington, DC 20416

                            Or E-mail Us at OIG@SBA.GOV




*Upon request, your name will be held in confidence.
